APPENDICES

1a
APPENDIX A
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
STEVEN MCARDLE,
Plaintiff-Appellee,
v.
AT&T MOBILITY LLC; NEW CINGULAR WIRELESS PCS, LLC; NEW CINGULAR WIRELESS
SERVICES, INC.,
Defendants-Appellants.
No. 17-17246
D.C. No. 4:09-cv-01117-CW
Filed Jun 28, 2019
MEMORANDUM*
Appeal from the United States District Court for the
Northern District of California Claudia Wilken,
District Judge, Presiding
Argued and Submitted February 12, 2019
San Francisco, California

This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
*

2a
Before: McKEOWN, W. FLETCHER, and MURGUIA,
Circuit Judges.
AT&T Mobility LLC (“AT&T”) appeals the district
court’s order rescinding its earlier order to compel arbitration and vacating the arbitration award. We have
jurisdiction under 9 U.S.C. § 16(a)(1), and we affirm.
For the reasons set forth in our concurrently filed
opinion in Blair v. Rent-A- Center, Inc., No. 17-17221,
we hold that California’s McGill rule is not preempted
by the Federal Arbitration Act.
In light of this holding, we hold that the arbitration agreement between AT&T and plaintiff Steven
McArdle is null and void in its entirety. Subsection
2.2(6) of the parties’ agreement purports to waive
McArdle’s right to pursue public injunctive relief in
any forum and so is unenforceable under California
law. See McGill v. Citibank N.A., 393 P.3d 85, 94 (Cal.
2017). Subsection 2.2(6) of the agreement continues:
“If this specific provision is found to be unenforceable,
then the entirety of this arbitration provision shall be
null and void.”
The text’s non-severability clause plainly invalidates the entire arbitration agreement. Contrary to
AT&T’s assertions, there are no “ambiguities about
the scope of [the] arbitration agreement.” See Lamps
Plus, Inc. v. Varela, 139 S. Ct. 1407, 1418 (2019) (citing Moses H. Cone Mem’l Hosp. v. Mercury Constr.
Corp., 460 U.S. 1, 24–25 (1983)); see also E.E.O.C v.
Waffle House, Inc., 534 U.S. 279, 294 (2002) (“[W]e do
not override the clear intent of the parties, or reach a
result inconsistent with the plain text of the contract,
simply because the policy favoring arbitration is implicated.”).

3a
AT&T’s proposed two-step process derived from
our opinion in Ferguson v. Corinthian Colleges, Inc.,
733 F.3d 928 (9th Cir. 2013) is impermissible where
the arbitration agreement is null and void in its entirety. Under these circumstances, the district court
did not err in vacating the arbitration award and rescinding its prior order compelling arbitration.
AFFIRMED.

4a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
STEVEN MCARDLE,
Plaintiff-Appellee,
v.
AT&T MOBILITY LLC; et al.,
Defendants-Appellants.
No. 17-17246
D.C. No. 4:09-cv-01117-CW
Northern District of California, Oakland
ORDER
Before: McKEOWN, W. FLETCHER, and MURGUIA, Circuit Judges.
The panel has voted to deny the petition for rehearing en banc, filed by defendants-appellants on
August 9, 2019 (Dkt. Entry 55).
The full court has been advised of the petition for
rehearing en banc, and no judge of the court has requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The petition for rehearing en banc is DENIED.

5a
APPENDIX C
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PAULA L. BLAIR; ANDREA ROBINSON;
HARRIS A. FALECHIA,
Plaintiffs-Appellees,
v.
RENT-A-CENTER, INC., a Delaware
corporation; RENT-A-CENTER WEST, INC.,
a Delaware corporation,
Defendants-Appellants.
No. 17-17221
D.C. No. 3:17-cv-02335-WHA
OPINION
Appeal from the United States District Court
for the Northern District of California
William Alsup, District Judge, Presiding
Argued and Submitted February 12, 2019
San Francisco, California
Filed June 28, 2019
Before: M. Margaret McKeown, William A. Fletcher,
and Mary H. Murguia, Circuit Judges.
Opinion by Judge W. Fletcher
OPINION
W. FLETCHER, Circuit Judge:
In McGill v. Citibank, N.A., 393 P.3d 85 (Cal.
2017), the California Supreme Court decided that a

6a
contractual agreement purporting to waive a party’s
right to seek public injunctive relief in any forum is
unenforceable under California law. We are asked to
decide in this case whether the Federal Arbitration
Act (“FAA”) preempts California’s McGill rule.1 We
hold it does not.
Plaintiffs brought a putative class action alleging
that defendants Rent-A-Center, Inc. and Rent-A-Center West, Inc. (collectively, “Rent-A-Center”) charged
excessive prices for its rent-to-own plans for household items. We affirm the district court’s partial denial of Rent-A-Center’s motion to compel arbitration.
We also affirm the district court’s denial of Rent-ACenter’s motion for a mandatory stay of plaintiffs’
non-arbitrable claims. Finally, we dismiss for lack of
jurisdiction Rent-A-Center’s appeal of the district
court’s denial of a discretionary stay and its decision
to defer ruling on a motion to strike class action
claims.
I. Factual and Procedural Background
Rent-A-Center operates stores that rent household items to consumers for set installment payments.
If all payments are made on time, the consumer takes
ownership of the item. Rent-A-Center also sets a cash
price at which the consumer can purchase the item
before the rent-to-own period has ended.
Paula Blair entered into rent-to-own agreements
with Rent-A-Center for an air conditioner in 2015 and
for a used Xbox in 2016. Blair, together with two other
This panel received briefing and heard argument in two additional cases raising this same question: McArdle v. AT&T Mobility LLC (No. 17-17221) and Tillage v. Comcast Corp. (No. 1815288). Those cases are resolved in separate memorandum dispositions filed simultaneously with this opinion.
1

7a
named plaintiffs, filed a class action complaint on
March 13, 2017, on behalf of all individuals who, on or
after March 13, 2013, entered into rent-to-own transactions with Rent-A-Center in California. The complaint alleged that Rent-A-Center structured its rentto-own pricing in violation of state law.
In 1994, the California Legislature enacted the
Karnette Rental-Purchase Act, Cal. Civ. Code §§
1812.620 et seq. (“Karnette Act”), to “prohibit unfair
or unconscionable conduct toward consumers” who enter into rent-to-own agreements. Id. § 1812.621. The
Karnette Act sets statutory maximums for both the
“total of payments” amount for installment payments
and the “cash price” for rent-to-own items. Id. §
1812.644. These maximums are set in proportion to
the “documented actual cost” of the items to the lessor/seller. Id. § 1812.622(k).
The operative complaint includes claims under
the Karnette Act, as well as the Unfair Competition
Law, Cal. Bus. & Prof. Code §§ 17200 et seq. (“UCL”),
the Consumers Legal Remedies Act, Cal. Civ. Code §§
1750 et seq. (“CLRA”), and California’s anti-usury
law, Cal. Const. art. XV, § 1(1). Plaintiffs seek a “public injunction” on behalf of the people of California to
enjoin future violations of these laws, and to require
that Rent-A-Center provide an accounting of monies
obtained from California consumers and individualized notice to those consumers of their statutory
rights. Plaintiffs also seek declaratory relief, compensatory damages and restitution, and attorneys’ fees
and costs.
Of the named plaintiffs, Rent-A-Center has a
valid arbitration agreement only with Blair, and only
with respect to her 2015 air conditioner agreement.

8a
Blair opted out of arbitration in her 2016 Xbox agreement, and Rent-A-Center has been unable to locate
signed arbitration agreements for either of the other
two named plaintiffs. In June 2017, Rent- A-Center
filed a motion to compel arbitration of all claims arising out of Blair’s 2015 agreement, which reads in relevant part:
(B) What Claims Are Covered: You
and RAC [Rent-A-Center] agree that,
in the event of any dispute or claim between us, either you or RAC may elect
to have that dispute or claim resolved
by binding arbitration. This agreement to arbitrate is intended to be interpreted as broadly as the FAA allows. Claims subject to arbitration include . . . claims that are based on any
legal theory whatsoever, including . . .
any statute, regulation or ordinance.
...
(D) Requirement of Individual Arbitration: You and RAC agree that
arbitration shall be conducted on an
individual basis, and that neither you
nor RAC may seek, nor may the Arbitrator award, relief that would affect
RAC account holders other than you.
There will be no right or authority for
any dispute to be brought, heard, or
arbitrated as a class, collective, mass,
private attorney general, or representative action. . . . If there is a final
judicial determination that applicable
law precludes enforcement of this Paragraph’s limitations as to a particular

9a
claim for relief, then that claim (and
only that claim) must be severed from
the arbitration and may be brought in
court.
The district court concluded that the agreement
violates California’s McGill rule because it constitutes
a waiver of Blair’s right to seek public injunctive relief
in any forum. The court also held the McGill rule was
not preempted by the FAA. Relying on the severance
clause at the end of Paragraph (D), the court held that
Blair’s Karnette Act, UCL, and CLRA claims “must be
severed from the arbitration.” The district court
granted Rent-A-Center’s motion to compel arbitration
of Blair’s usury claim because California’s usury law
“is not amenable to public injunctive relief.”
The district court denied Rent-A-Center’s motion
to stay proceedings on claims not sent to arbitration—
including those of the other two named plaintiffs—
pending the outcome of arbitration. It also delayed
ruling on Rent-A-Center’s motion to strike class action
claims.
Rent-A-Center appealed the district court’s denial
of its motion to compel arbitration of Blair’s Karnette
Act, UCL, and CLRA claims. Rent-A-Center also appealed the court’s denial of the motion to stay proceedings and its delay in ruling on the motion to strike.
II. The McGill Rule
Several California consumer protection statutes
make available the remedy of a public injunction,
which is defined as “injunctive relief that has the primary purpose and effect of prohibiting unlawful acts
that threaten future injury to the general public.”
McGill, 393 P.3d at 87. One key difference between a

10a
private and public injunction is the primary beneficiary of the relief. Private injunctions “resolve a private dispute” between the parties and “rectify individual wrongs,” though they may benefit the general public incidentally. Id. at 89 (internal alterations and citation omitted). By contrast, public injunctions benefit
“the public directly by the elimination of deceptive
practices,” but do not otherwise benefit the plaintiff,
who “has already been injured, allegedly, by such
practices and [is] aware of them.” Id. at 90 (internal
citation and quotations omitted).
The California Supreme Court held in McGill that
an agreement to waive the right to seek public injunctive relief violates California Civil Code § 3513, which
provides that “a law established for a public reason
cannot be contravened by a private agreement.” Id. at
93. Under § 3513, a party to a private contract may
waive a statutory right only if the “statute does not
prohibit doing so, the statute’s public benefit is merely
incidental to its primary purpose, and waiver does not
seriously compromise any public purpose that the
statute was intended to serve.” Id. at 94 (internal alterations and citations omitted).
The California Supreme Court found that public
injunctive relief available under the UCL and CLRA,
among other statutes, is “[b]y definition . . . primarily
‘for the benefit of the general public.’” Id. (citing
Broughton v. Cigna Healthplans of Cal., 988 P.2d 67
(Cal. 1999); Cruz v. PacifiCare Health Sys., Inc., 66
P.3d 1157 (Cal. 2003)). Waiver “of the right to seek
public injunctive relief under these statutes would seriously compromise the public purposes the statutes
were intended to serve.” Id. Therefore, such waivers
are “invalid and unenforceable under California law.”
Id.

11a
The contract at issue in McGill was an arbitration
agreement waiving the plaintiff’s right to seek public
injunctive relief in arbitration and requiring arbitration of all claims, thereby waiving the plaintiff’s right
to seek a public injunction through litigation. Id. at
87–88. Because this waiver prevented the plaintiff
from seeking a public injunction in any forum, it was
unenforceable under California Civil Code § 3513. Id.
at 94.
III. FAA Preemption
Rent-A-Center argues the district court erred in
denying its motion to compel arbitration of Blair’s
Karnette Act, UCL, and CLRA claims, contending
that the McGill rule is preempted by the FAA. We
have appellate jurisdiction under 9 U.S.C. §
16(a)(1)(C), which allows an interlocutory appeal of a
district court’s denial of a motion to compel arbitration. We review de novo such a denial. Kilgore v. KeyBank, Nat’l Ass’n, 718 F.3d 1052, 1057 (9th Cir. 2013)
(en banc). We also review de novo a district court’s
preemption analysis. AGG Enters. v. Washington Cty.,
281 F.3d 1324, 1327 (9th Cir. 2002).
A. Federal Arbitration Act
The FAA directs courts to treat arbitration agreements as “valid, irrevocable, and enforceable, save
upon such grounds as exist at law or in equity for the
revocation of any contract.” 9 U.S.C. § 2. The saving
clause of § 2 “permits agreements to arbitrate to be
invalidated by generally applicable contract defenses,
such as fraud, duress, or unconscionability, but not by
defenses that apply only to arbitration or that derive
their meaning from the fact that an agreement to arbitrate is at issue.” AT&T Mobility LLC v. Concepcion,
563 U.S. 333, 339 (2011) (internal quotation omitted).

12a
“[T]he saving clause does not save defenses that target
arbitration either by name or by more subtle methods,
such as by ‘interfer[ing] with fundamental attributes
of arbitration.’” Epic Sys. Corp. v. Lewis, 138 S. Ct.
1612, 1622 (2018) (quoting Concepcion, 563 U.S. at
344).
The Supreme Court has described the FAA as establishing “a liberal federal policy favoring arbitration
agreements.” Moses H. Cone Mem’l Hosp. v. Mercury
Constr. Corp., 460 U.S. 1, 24 (1983). While the “FAA
contains no express pre-emptive provision,” it
preempts state law “to the extent that [the state law]
stands as an obstacle to the accomplishment and execution of the full purposes and objectives of Congress.”
Volt Info. Scis., Inc. v. Bd. of Trs. of Leland Stanford
Junior Univ., 489 U.S. 468, 477 (1989). A state-law
rule can be preempted by the FAA in two ways.
First, a state-law rule is preempted if it is not a
“generally applicable contract defense[]” and so does
not fall within the saving clause as a “ground[] . . . for
the revocation of any contract.” 9 U.S.C. § 2; Concepcion, 563 U.S. at 339. A rule is generally applicable if
it “appl[ies] equally to arbitration and non-arbitration
agreements.” Sakkab v. Luxottica Retail N. Am., Inc.,
803 F.3d 425, 432 (9th Cir. 2015). By contrast, a rule
is not generally applicable if it “prohibits outright the
arbitration of a particular type of claim.” Concepcion,
563 U.S. at 341.
Second, even a generally applicable rule may be
preempted if it “stand[s] as an obstacle to the accomplishment of the FAA’s objectives.” Id. An “overarching purpose of the FAA . . . is to ensure the enforcement of arbitration agreements according to their
terms so as to facilitate streamlined proceedings.” Id.

13a
As the Supreme Court recently restated, “[t]he general applicability of [a] rule [does] not save it from
preemption under the FAA” if the rule “interferes with
fundamental attributes of arbitration.” Lamps Plus,
Inc. v. Varela, 139 S. Ct. 1407, 1418 (2019) (citing Concepcion, 563 U.S. at 344).2
B. Concepcion and Sakkab
The Supreme Court’s decision in Concepcion and
our decision in Sakkab guide our analysis. Indeed, our
decision in Sakkab all but decides this case.
In Concepcion, the Supreme Court considered
whether the FAA preempted California’s Discover
Bank rule that class waivers in most consumer arbitration agreements were unconscionable under California law. See Discover Bank v. Superior Court, 113
P.3d 1100 (Cal. 2005). The Court recognized that unconscionability is “a doctrine normally thought to be
generally applicable.” Concepcion, 563 U.S. at 341.
The Court nonetheless held the Discover Bank rule
was preempted because it “interfere[d] with fundamental attributes of arbitration and thus create[d] a
scheme inconsistent with the FAA.” Id. at 344. According to the Court, “the switch from bilateral to class arbitration sacrifices the principal advantage of arbitration—its informality—and makes the process slower,
more costly, and more likely to generate procedural
morass than final judgment.” Id. at 348. The Court
recognized that “class arbitration requires procedural

The parties filed notices of supplemental authority pursuant to
Federal Rule of Appellate Procedure 28(j) informing this court of
the Supreme Court’s decision in Lamps Plus, which was published after oral argument in this case. We have reviewed the
Supreme Court’s decision and considered it in our analysis.
2

14a
formality” because if “procedures are too informal, absent class members would not be bound by the arbitration”—that is, due process compels procedural
complexity in class arbitration. Id. at 349 (emphasis
in original). The Court noted that “class arbitration
greatly increases risks to defendants” because it combines high stakes with limited appellate review. Id. at
350–51. The Court concluded that classwide arbitration is therefore “not arbitration as envisioned by the
FAA” and “lacks its benefits.” Id. at 351.
In the wake of Concepcion, we considered in Sakkab whether the FAA preempts California’s Iskanian
rule, which bars contractual waiver in any fora of representative claims under California’s Private Attorneys General Act of 2004 (“PAGA”), Cal. Lab. Code §§
2698 et seq. See Sakkab, 803 F.3d at 427; Iskanian v.
CLS Transp. L.A., LLC, 327 P.3d 129 (Cal. 2014).
PAGA “authorizes an employee to bring an action for
civil penalties on behalf of the state against his or her
employer for Labor Code violations committed against
the employee and fellow employees, with most of the
proceeds of that litigation going to the state.” Iskanian, 327 P.3d at 133.
We concluded that the Iskanian rule is generally
applicable because it “bars any waiver of PAGA
claims, regardless of whether the waiver appears in
an arbitration agreement or a non-arbitration agreement.” Sakkab, 803 F.3d at 432. We also noted that
the rule does not “prohibit the arbitration of any type
of claim.” Id. at 434. We recognized that although the
purpose of the FAA is “to ensure that private arbitration agreements are enforced according to their
terms,” the saving clause of § 2 would be rendered
“wholly ineffectual” if that purpose overrode all state-

15a
law contract defenses. Id. (internal quotations and citations omitted). Instead, “Congress plainly . . . intend[ed] to preempt . . . only those [state contract defenses] that ‘interfere[] with arbitration.’” Id. (quoting
Concepcion, 563 U.S. at 346).
We held the Iskanian rule does not interfere with
arbitration. Id. at 435. Most important, the Iskanian
rule does “not diminish parties’ freedom to select informal arbitration procedures.” Id. PAGA actions, unlike class actions, do not “resolve[] the claims of other
employees,” so “there is no need to protect absent employees’ due process rights in PAGA arbitrations.” Id.
at 436. Nor does California state law “purport[] to
limit parties’ right to use informal procedures, including limited discovery.” Id. at 438–39. Finally, while
PAGA actions “may . . . involve high stakes” due to
“hefty civil penalties,” the FAA does not preempt
causes of action merely because they impose substantial liability. Id. at 437. We concluded that “the Iskanian rule does not conflict with the FAA, because it
leaves parties free to adopt the kinds of informal procedures normally available in arbitration.” Id. at 439.
C. Discussion
1. Generally Applicable Contract Defense
The McGill rule, like the Iskanian rule, is a generally applicable contract defense. The California Supreme Court specified that a waiver of public injunctive relief in “any contract—even a contract that has
no arbitration provision”—is “unenforceable under
California law.” McGill, 393 P.3d at 94 (emphasis in
original). The McGill rule thus applies “equally to arbitration and non-arbitration agreements.” Sakkab,
803 F.3d at 432.

16a
Rent-A-Center argues that the McGill rule is
equivalent to an earlier and now-preempted California rule called the Broughton-Cruz rule. See Broughton, 988 P.2d 67; Cruz, 66 P.3d 1157. The BroughtonCruz rule had established that “[a]greements to arbitrate claims for public injunctive relief. . . are not enforceable in California.” McGill, 393 P.3d at 90. We
held in Ferguson v. Corinthian Colleges, Inc., 733 F.3d
928, 934 (9th Cir. 2013), that the FAA preempted the
Broughton-Cruz rule because it “prohibits outright”
the arbitration of public injunctive relief. The McGill
rule bears no resemblance to the Broughton-Cruz
rule. It shows no hostility to, and does not prohibit,
the arbitration of public injunctions. It merely prohibits the waiver of the right to pursue public injunctive
relief in any forum; the Broughton- Cruz rule specifically excluded public injunctive claims from arbitration.
The McGill rule is also unlike the rule at issue in
Kindred Nursing Centers Ltd. Partnership v. Clark,
137 S. Ct. 1421 (2017). In that case, the Supreme
Court struck down a judge- made Kentucky rule that
an agent with general power of attorney could not
waive a principal’s right to a jury trial without explicit
consent of the principal. Id. at 1425. The rule had been
invoked to invalidate two arbitration agreements. Id.
Though the rule did not explicitly forbid the arbitration of claims, the Court held that “a legal rule hinging
on the primary characteristic of an arbitration agreement—namely, a waiver of the right to go to court and
receive a jury trial”—impermissibly targets arbitration. Id. at 1427. Unlike the Kentucky rule, the McGill
rule does not “rely on the uniqueness of an agreement
to arbitrate” to categorically disfavor arbitration as a
forum. See id. at 1426 (quoting Concepcion, 563 U.S.
at 341). To the contrary, the McGill rule expresses no

17a
preference as to whether public injunction claims are
litigated or arbitrated, it merely prohibits the waiver
of the right to pursue those claims in any forum.
Moreover, the Court in Kindred noted that the underlying principle behind the Kentucky rule—that an
agent cannot waive a principal’s “fundamental constitutional right” without express consent—had never
been applied outside the context of arbitration. Id. at
1427–28. By contrast, the McGill rule derives from a
general and long-standing prohibition on the private
contractual waiver of public rights. California courts
have repeatedly invoked California Civil Code § 3513
to invalidate waivers unrelated to arbitration. See,
e.g., County of Riverside v. Superior Court, 42 P.3d
1034, 1042 (Cal. 2002) (holding that a police officer’s
“blanket waiver” of his rights under the Public Safety
Officers Procedural Bill of Rights Act as a condition of
his employment would be inconsistent with § 3513);
Covino v. Governing Bd., 142 Cal. Rptr. 812, 817 (Ct.
App. 1977) (invalidating under § 3513 a teacher’s
waiver of his right under the Education Code to become a contract, rather than temporary, employee);
Benane v. Int’l Harvester Co., 299 P.2d 750, 753 (Cal.
Ct. App. 1956) (invalidating under § 3513 a collective
bargaining agreement provision waiving employees’
rights under the Election Code to be paid for time
taken off work to vote); De Haviland v. Warner Bros.
Pictures, 153 P.2d 983, 988 (Cal. Ct. App. 1944) (invalidating under § 3513 a movie star’s contractual waiver
of the Labor Code’s seven-year limit on personal service contracts); Cal. Powder Works v. Atl. & Pac. R.R.
Co., 45 P. 691, 693 (Cal. 1896) (relying on § 3513 to
construe a common carrier’s contractual exemption
from liability to exclude liability caused by the carrier’s negligence because that liability is “imposed
upon it by law”).

18a
In sum, the McGill rule is a generally applicable
contract defense derived from long-established California public policy. It is a “ground[] . . . for the revocation of any contract” and falls within the FAA’s saving clause at the first step of the preemption analysis.
9 U.S.C. § 2.
2. Interference with Arbitration
“[A] doctrine normally thought to be generally applicable” is nonetheless preempted by the FAA if it
“stand[s] as an obstacle to the accomplishment of the
FAA’s objectives.” Concepcion, 563 U.S. at 341, 343.
One objective of the FAA is to enforce arbitration
agreements according to their terms “so as to facilitate
streamlined proceedings.” Id. at 344. However, we “do
not read Concepcion to require the enforcement of all
waivers of representative claims in arbitration agreements.” Sakkab, 803 F.3d at 436. Instead, “Congress
plainly . . . intend[ed] to preempt . . . only those [state
contract defenses] that ‘interfere[] with arbitration.’”
Id. at 434 (quoting Concepcion, 563 U.S. at 346). Accordingly, we look at “whether refusing to enforce
waivers” of a claim that is “technically denominated”
as representative “will deprive parties of the benefits
of arbitration.” Id. at 436.
Our decision in Sakkab is squarely on point. The
McGill rule, like the Iskanian rule, does not “deprive
parties of the benefits of arbitration.” See id. This
characteristic distinguishes both rules from the Discover Bank rule barring the waiver of class actions at
issue in Concepcion. A major concern in Concepcion
was that compelling classwide arbitration “requires
procedural formality,” and, in so doing, “makes the
process slower, more costly, and more likely to generate procedural morass than final judgment.” Concepcion, 563 U.S. at 348–49. By contrast, neither state

19a
law nor constitutional due process gives rise to, let
alone “requires[,] procedural formality” in the arbitration of public injunctive relief.
Public injunctive relief under the Karnette Act,
UCL, and CLRA does not require formalities inconsistent with arbitration. In McGill, the California Supreme Court expressly held that claims for public injunctive relief need not comply with state-law class
procedures. McGill, 393 P.3d at 93. We are bound by
this ruling. See Hemmings v. Tidyman’s Inc., 285 F.3d
1174, 1203 (9th Cir. 2002). Nor does constitutional
due process require unusual procedures inconsistent
with arbitration. In Sakkab, we held that the due process rights of absent employees are not implicated by
the arbitration of a PAGA claim because the claim is
brought on behalf of the state, which is the “real
part[y] in interest.” Sakkab, 803 F.3d at 436. The
small portion of a PAGA penalty distributed to employees is incidental to the statute’s public enforcement purpose and effect. Similarly, here, public injunction claims are brought for the benefit of the general public, not on behalf of specific absent parties.
Crucially, arbitration of a public injunction does
not interfere with the bilateral nature of a typical consumer arbitration. The rules struck down in Concepcion and Epic Systems “impermissibly disfavor[ed] arbitration” because they rendered an agreement “unenforceable just because it require[d] bilateral arbitration.” Epic Systems, 138 S. Ct. at 1623 (emphasis
removed). The McGill rule does no such thing. The
McGill rule leaves undisturbed an agreement that
both requires bilateral arbitration and permits public
injunctive claims. A plaintiff requesting a public injunction files the lawsuit “on his or her own behalf”
and retains sole control over the suit. McGill, 393 P.3d

20a
at 92. Nothing in the McGill rule requires a “switch
from bilateral . . . arbitration” to a multi-party action.
Concepcion, 563 U.S. at 348.
It is possible that arbitration of a public injunction
will in some cases be more complex than arbitration
of a conventional individual action or a representative
PAGA claim. But as with PAGA actions, the complexity involved in resolving a request for a public injunction “flows from the substance of the claim itself, rather than any procedures required to adjudicate it (as
with class actions).” Sakkab, 803 F.3d at 438. The distinction between substantive and procedural complexity is relevant to the preemption analysis because the
Court found in Concepcion that classwide arbitration’s “procedural formality” frustrated the FAA’s objective of ensuring speedy, cost-effective, and informal
arbitration. Concepcion, 563 U.S. at 348–49. But “potential complexity should not suffice to ward off arbitration” of substantively complex claims. Mitsubishi
Motors Corp. v. Soler Chrysler-Plymouth, Inc., 473
U.S. 614, 633 (1985). A state-law rule that preserves
the right to pursue a substantively complex claim in
arbitration without mandating procedural complexity
does not frustrate the FAA’s objectives.
One theoretical distinction between arbitrating
PAGA claims and arbitrating public injunctive claims
is the potential for multiple injunctions against the
same defendant imposing conflicting obligations, a
scenario without an obvious analogue in the PAGA
context. These concerns are conjectural and unpersuasive. We are unaware of a single such conflict in the
decades public injunctive relief has been available in
California courts. Even assuming such conflicts are
(for some unidentified reason) imminent in the arbi-

21a
tral forum, the defendant can always inform the arbitrator of its existing obligations. We see no reason to
believe that an arbitrator would then impose an irreconcilable obligation on the defendant. Nor would complex procedures be needed to avoid such conflicts: the
defendant need simply tell the arbitrator. If the initial
proceedings were confidential, the defendant could, to
the extent necessary, obtain permission from the earlier arbitrator to make such a limited disclosure.
Ongoing injunctions sometimes need monitoring
or modification. The need for monitoring and modification is inherent in all injunctive relief, public and
private, and such monitoring and modification is not
incompatible with informal arbitration. Arbitrators
have long had the authority and ability to address requests for injunctive relief within bilateral arbitration. See AAA Commercial Arbitration Rule 47(a)
(“The arbitrator may grant any remedy or relief that
the arbitrator deems just and equitable and within
the scope of the agreement of the parties[.]”). We are
not concerned that arbitrating public injunctions
would produce procedural complexities not already
common to the arbitration of private injunctions.
Nor are public injunctions unique because of the
need to weigh the public interest in deciding whether
to grant an injunction. Judges and arbitrators routinely consider the public interest when issuing private injunctions. See, e.g., Sw. Voter Reg. Educ. Project v. Shelley, 344 F.3d 914, 917 (9th Cir. 2003) (en
banc) (“The district court must also consider whether
the public interest favors issuance of the injunction”).
Injunctive relief in antitrust actions, for example, requires “reconciliation between the public interest and
private needs as well as between competing private

22a
claims.” See California v. Am. Stores Co., 495 U.S.
271, 284 (1990).
Rent-A-Center’s contention that arbitration of a
public injunction requires expansive discovery and
presentation of class-wide evidence is mistaken. We
are unconvinced by Rent-A-Center’s suggestion that
under Cisneros v. U.D. Registry, Inc., 46 Cal. Rptr. 2d
233 (Ct. App. 1995), a public injunction claim “demands class-wide evidence.” That case merely stands
for the unremarkable notion that evidence of “similar
practices involving other members of the public who
are not parties to the action” may be relevant to and
admissible to support a public injunction claim. Id. at
244. The Court of Appeal said nothing about the discoverability of such evidence, nor did it limit parties’
ability to agree ex ante on the scope of discovery.
The parties remain free to reasonably limit by ex
ante agreement discovery and presentation of evidence, as they may with any other arbitrable claim.
Rent-A-Center chose to omit any such provision from
the 2015 air conditioner agreement, and, in the absence of such an agreement, the breadth of discovery
in a public injunctive action, as in a PAGA action,
“flows from the substance of the claim itself, rather
than any procedures required to adjudicate it.” Sakkab, 803 F.3d at 438. Such is the case in the antitrust
context as well, and, as we know, antitrust claims are
unquestionably arbitrable. See Mitsubishi Motors
Corp., 473 U.S. at 628–40.
Finally, a public injunction may involve high
stakes and could affect a lucrative business practice.
But so could a private injunctive, declaratory, or damages action. As we explained in Sakkab, “the FAA
would not preempt a state statutory cause of action
that imposed substantial liability merely because the

23a
action’s high stakes would arguably make it poorly
suited to arbitration.” Sakkab, 803 F.3d at 437 (citing
Medtronic, Inc. v. Lohr, 518 U.S. 470, 485 (1996)).
Where a public injunction does not interfere with the
informal, bilateral nature of traditional consumer arbitration, high stakes alone do not warrant FAA
preemption.
As we recognized in Sakkab, arbitration is “[i]n
many ways . . . well suited to resolving complex disputes, provided that the parties are free to decide how
the arbitration will be conducted.” Id. at 438. Like the
Iskanian rule, the McGill rule does not “mandate procedures that interfere with arbitration.” See id. Arbitration of public injunctive relief accordingly need not
“sacrifice[] the principal advantage of arbitration—its
informality.” See Concepcion, 563 U.S. at 348. We hold
that the FAA does not preempt the McGill rule.
IV. Construction of the Arbitration Agreement
Having concluded that the FAA does not preempt
the McGill rule, we now turn to the 2015 air conditioner agreement itself to determine its scope and effect. Rent-A- Center contends that the agreement requires Blair to submit her Karnette Act, UCL, and
CLRA claims to arbitration for determination of liability. According to Rent-A- Center, only after the arbitrator has determined liability can Blair go to court
to seek the remedy of a public injunction.3 We disagree.

Rent-A-Center alternatively argues that the McGill rule does
not apply because Blair’s requested relief does not amount to a
public injunction. Not so. Blair seeks to enjoin future violations
of California’s consumer protection statutes, relief oriented to
and for the benefit of the general public.
3

24a
The severance clause in the 2015 agreement instructs us to sever Blair’s Karnette Act, UCL, and
CLRA claims from the scope of arbitration, and to permit such claims to be brought in court. The clause
reads:
If there is a final judicial determination that applicable law precludes enforcement of this Paragraph’s limitations as to a particular claim for relief,
then that claim (and only that claim)
must be severed from the arbitration
and may be brought in court.
The severance clause is triggered by the McGill rule.
Paragraph (D) of the agreement prohibits the arbitrator from awarding “relief that would affect RAC account holders other than you,” and eliminates any
“right or authority for any dispute to be brought,
heard, or arbitrated as a class, collective, mass, private attorney general, or representative action.” Paragraph (D) thus precludes the arbitrator from awarding public injunctive relief. Paragraph (B) of the
agreement permits Rent-A-Center to demand that all
disputes be resolved in arbitration, which precludes
Blair from seeking public injunctive relief in court.
Read together, Paragraphs (B) and (D) waive Blair’s
right to seek a public injunction “in any forum.”
McGill, 393 P.3d at 87. The McGill rule is “applicable
law” that “precludes enforcement” of Paragraph (D)’s
limitations as to Blair’s Karnette Act, UCL, and CLRA
claims.
Rent-A-Center contends that the severance clause
carves out only the potential public injunctive remedy
for these causes of action, requiring the arbitrator to
adjudicate liability first. Rent-A-Center reads “claim
for relief” in the severance clause to refer only to a

25a
particular remedy, not to the underlying claim. The
district court found Rent-A-Center’s reading “unnatural and unpersuasive,” and we agree. Parties are welcome to agree to split decisionmaking between a court
and an arbitrator in this manner. Cf. Ferguson, 733
F.3d at 937. But they did not do so here.
The severance clause refers to “a particular claim
for relief,” but it then goes on to require, a few words
later in the same sentence, severance of “that claim”
from the arbitration in order to allow it to “be brought
in court.” A “claim for relief,” as that term is ordinarily
used, is synonymous with “claim” or “cause of action.”
See, e.g., Fed. R. Civ. P. 8(a) (interchangeably using
“claim” and “claim for relief,” and using “demand for
relief sought” to refer specifically to requested remedy); Claim, Black’s Law Dictionary (10th ed. 2014)
(noting that a “claim” is “[a]lso termed claim for relief”); Claim for relief, Black’s Law Dictionary (10th
ed. 2014) (referencing definition for “claim”); In re
Ocwen Loan Serv., LLC Mortg. Serv. Litig., 491 F.3d
638, 646 (7th Cir. 2007) (“The eighth claim is purely
remedial; it seeks injunctive relief. Of course it is not
a claim, that is, a cause of action, and should not have
been labeled as such “); Cannon v. Wells Fargo Bank
N.A., 917 F. Supp. 2d 1025, 1031 (N.D. Cal. 2013)
(“[E]quitable relief is not a claim for relief but rather
only a remedy.”). We read the clause, as did the district court, to provide that the entire claim be severed
for judicial determination.
V. Other Issues
The district court refused to impose either a mandatory or discretionary stay on the non-arbitrable
claims pending arbitration of Blair’s usury claim. We
have jurisdiction under 9 U.S.C. § 16(a)(1)(A) to re-

26a
view the denial of a mandatory stay, which is a question of law that we review de novo. Under 9 U.S.C. §
3, a district court must stay proceedings for claims
and issues “referable to arbitration” pending resolution of the arbitration. See Leyva v. Certified Grocers
of Cal., Ltd., 593 F.2d 857, 863 (9th Cir. 1979). Only
the usury claim was “referable to arbitration,” so
Rent-A-Center was not entitled to a stay under § 3 for
any of the other claims. See id. We affirm the district
court’s ruling.
We lack jurisdiction to review the district court’s
denial of a discretionary stay. See Portland Gen. Elec.
Co. v. Liberty Mut. Ins. Co., 862 F.3d 981, 986 (9th Cir.
2017). Our appellate jurisdiction under the FAA over
interlocutory appeals is limited to the orders listed in
9 U.S.C. § 16(a)(1). Kum Tat Ltd. v. Linden Ox Pasture, LLC, 845 F.3d 979, 982 (9th Cir. 2017). Relevant
here, appellate jurisdiction extends to orders “refusing a stay of any action under section 3 of this title.” 9
U.S.C. § 16(a)(1)(A). A discretionary stay is based on
the district court’s inherent authority to manage its
docket and is not “a stay . . . under section 3” of the
FAA. See Portland Gen. Elec. Co., 862 F.3d at 984. The
exceptions that, at times, justify extension of appellate jurisdiction over the imposition of a discretionary
stay do not apply to the denial of a stay. Cf. Dependable Highways Exp. Inc. v. Navigators Ins. Co., 498
F.3d 1059, 1063–64 (9th Cir. 2007).
We also lack jurisdiction to review the district
court’s decision to defer ruling on Rent-A-Center’s motion to strike because it is a non-final order not covered by one of the categories set forth in 9 U.S.C. §
16(a)(1)(A). See Kum Tat Ltd., 845 F.3d at 982.

27a
Conclusion
The district court’s denials of Rent-A-Center’s motion to compel arbitration and motion for a mandatory
stay are AFFIRMED.
Rent-A-Center’s appeals of the district court’s denial of a discretionary stay and deferral on the motion
to strike class claims are DISMISSED for lack of jurisdiction.

28a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
CALIFORNIA
STEVEN MCARDLE,
Plaintiff,
v.
AT&T MOBILITY LLC; NEW
CINGULAR WIRELESS PCS LLC; AND NEW CINGULAR WIRELESS SERVICES, INC.,
Defendants.
CASE NO. 09-CV-01117-CW
ORDER GRANTING MOTION TO RECONSIDER
AND VACATING ARBITRAL AWARD
(Dkt. Nos. 257, 263, 273, 274, 285)
The Court granted the motion of Defendants
AT&T Mobility LLC, New Cingular Wireless PCS
LLC, and New Cingular Wireless Services, Inc., to
compel arbitration in this case. The arbitrator has issued a decision. Plaintiff Steven McArdle has moved
to vacate the arbitral award and to reconsider the
Court’s order compelling arbitration. Defendants have
filed a cross-motion to confirm the award. Each motion is opposed and each party has filed a reply. Having considered the parties’ papers, the record, and relevant authority, the Court grants Plaintiff’s motion to
reconsider, rescinds the September 25, 2013 order
compelling arbitration and vacates the arbitral
award. The Court also denies as moot Plaintiff’s motion to vacate the award under 9 U.S.C. § 10(a)(3) or
(4), and denies Defendants’ motion to confirm.

1

II

29a
BACKGROUND
Defendants provide cellular telephone services.
Plaintiff alleges that Defendants deceptively charged
exorbitant international roaming fees for calls that
customers did not answer, voicemail they did not
check, and calls they did not place. He asserts claims
under California law, on behalf of himself and all others similarly situated, for false advertising, fraud, and
violation of the Consumers Legal Remedies Act
(CLRA) and Unfair Competition Law (UCL).
Plaintiff’s service agreement with Defendants
contains a provision that requires the parties to the
agreement to arbitrate “all disputes and claims” between them. Debra Figueroa Decl. in Support of Renewed Motion to Compel Arbitration and Stay Action,
Ex. 2, § 2.2(1). More specifically, section 2.0 of the service agreement, captioned “How Do I Resolve Disputes With AT&T,” relates to dispute resolution. Id.
§ 2.0. Section 2.0 is divided into two sections, of which
section 2.1 is a summary and section 2.2 is captioned
“Arbitration Agreement.” Id. § 2.2. Section 2.2, in
turn, contains seven numbered subsections, the sixth
of which provides:
The arbitrator may award declaratory or injunctive relief only in favor of the individual
party seeking relief and only to the extent necessary to provide relief warranted by that
party’s individual claim. YOU AND AT&T
AGREE THAT EACH MAY BRING CLAIMS
AGAINST THE OTHER ONLY IN YOUR OR
ITS INDIVIDUAL CAPACITY, AND NOT AS
A PLAINTIFF OR CLASS MEMBER IN ANY
PURPORTED CLASS OR REPRESENTATIVE PROCEEDING. Further, unless both
you and AT&T agree otherwise, the arbitrator

30a
may not consolidate more than one person’s
claims, and may not otherwise preside over
any form of a representative or class proceeding. If this specific provision is found to be unenforceable, then the entirety of this arbitration provision shall be null and void.
Id. § 2.2(6) (emphasis in original); see also July 1,
2013 Ltr. from Defense Counsel, Dkt. No. 245 (conceding that “‘this specific provision’ refers to all of Section
2.2(6), that is, all three preceding sentences”).
On September 14, 2009, this Court denied Defendants’ motion to compel arbitration, finding that the
class arbitration waiver was unconscionable under
Discover Bank v. Superior Court, 36 Cal. 4th 148
(2005), and Shroyer v. New Cingular Wireless Services, Inc., 498 F.3d 976 (9th Cir. 2007). Because the
class arbitration provision was expressly not severable from the other portions of the arbitration provision, the Court found that the arbitration provision as
a whole was not enforceable.
Defendants filed an interlocutory appeal. Meanwhile, this Court granted a stay pending the decision
of the United States Supreme Court in AT&T Mobility
LLC v. Concepcion, 563 U.S. 333 (2011). Following the
Concepcion decision, in which the Supreme Court held
that California’s Discover Bank rule was preempted
by the Federal Arbitration Act (FAA), the Ninth Circuit reversed and remanded. See McArdle v. AT&T
Mobility, 474 F. App’x 515, 516 (9th Cir. 2012). The
purpose of the remand was for this Court “to consider
in the first instance McArdle’s arguments based on
generally applicable contract defenses.” Id.
On remand, Defendants filed a renewed motion to
compel arbitration and stay the action. The Court

1

31a
granted the motion on September 25, 2013. The Court
considered and rejected Plaintiff’s arguments that arbitration was foreclosed by California’s BroughtonCruz rule, which prohibits arbitration of public injunctive relief claims under the CLRA and UCL, because such claims are “designed to prevent further
harm to the public at large rather than to redress or
prevent injury to a plaintiff.” Cruz v. PacifiCare
Health Systems, Inc., 30 Cal. 4th 303, 316 (2003); see
also Broughton v. Cigna Healthplans of California, 21
Cal. 4th 1066 (1999). The Court found that the
Broughton-Cruz rule is not a generally applicable contract defense and thus does not survive Concepcion.
The Court further found that the arbitration agreement was not unenforceable under then-applicable
law for purporting to bar customers from seeking public injunctive relief in any forum.
While the arbitration was pending, the California
Supreme Court granted a petition for review to assess
the enforceability of public injunctive relief waivers
under California law. McGill v. Citibank, 345 P.3d 61
(Cal. Apr. 1, 2015) (Mem.). Plaintiff requested that the
arbitrator stay the arbitration pending McGill. The
arbitrator denied the request on June 8, 2015. Kristen
Simplicio Decl. in Support of Motion to Vacate Arbitral Award ¶ 3 & Ex. B.
On September 16, 2016, the arbitrator issued his
ruling in favor of Defendants. Id. ¶ 2 & Ex. A. Addressing Plaintiff’s individual claims, he found that
Plaintiff did not meet his burden to prove that Defendants failed to disclose international roaming charges
before Plaintiff incurred those charges on a trip to Italy in 2008. In light of this finding, the arbitrator de-

32a
cided that it was not necessary to address the additional issues raised by the parties, including Plaintiff’s claim for injunctive relief.
On December 16, 2016, Plaintiff timely filed his
motion to vacate the arbitral award. The Court
granted two stipulated motions to extend the time for
Defendants to respond to the motion, due to the scheduling needs of counsel and the Supreme Court’s impending decision in McGill.
On April 6, 2017, the California Supreme Court
decided McGill v. Citibank, N.A., 2 Cal. 5th 945
(2017). After the decision in McGill, this Court
granted leave for Plaintiff to file a motion for reconsideration of the order compelling arbitration. Plaintiff filed the motion for reconsideration and Defendants filed a cross-motion to confirm the arbitral
award.
DISCUSSION
I.

Plaintiff’s Motion for Reconsideration of the Order
Compelling Arbitration.
A. McGill Is a Change in Controlling Law that
Warrants Reconsideration.

Plaintiff moves for reconsideration of the Court’s
order compelling arbitration. A party who shows “reasonable diligence in bringing the motion” may seek reconsideration of an interlocutory order based on “a
change of law occurring after the time of such order.”
N.D. Cal. Civil L.R. 7-9(b). Defendants do not dispute
Plaintiff’s diligence in bringing the motion promptly
after McGill was decided.
McGill constitutes a change in controlling law for
the purpose of reconsideration. In the Court’s Septem-

33a
ber 25, 2013 order, the Court found that the Broughton-Cruz doctrine applies only to arbitration agreements, and thus could not be a generally applicable
contract defense as contemplated by the FAA. In
McGill, however, the California Supreme Court ruled
that predispute contracts purporting to waive the
right to seek the California statutory remedy of public
injunctive relief in any forum are contrary to California public policy and thus unenforceable under California law, regardless of whether they are contained
in an arbitration agreement. 2 Cal. 5th at 951-52; see
also id. at 961 (quoting Cal. Civil. Code § 3513 (“Any
one may waive the advantage of a law intended solely
for his benefit. But a law established for a public reason cannot be contravened by a private agreement.”).
The court further held that the FAA does not preempt
this rule of California law or require enforcement of
the waiver provision. Id. at 951-52, 962-966.
McGill’s holding that predispute waivers of public
injunctive relief are contrary to California public policy is binding on this Court. See Hemmings v. Tidyman’s Inc., 285 F.3d 1174, 1203 (9th Cir. 2002) (“In
interpreting state law, federal courts are bound by the
pronouncements of the state’s highest court.”). It represents a significant change in California law that occurred after this Court’s order compelling arbitration.
Judgment has not been entered in this case, and the
Court may reconsider its interlocutory order compelling arbitration. “As long as a district court has jurisdiction over the case, then it possesses the inherent
procedural power to reconsider, rescind, or modify an
interlocutory order for cause seen by it to be sufficient.” City of Los Angeles, Harbor Div. v. Santa Monica Baykeeper, 254 F.3d 882, 885 (9th Cir. 2001)
(holding that district court had jurisdiction to rescind

34a
order certifying interlocutory appeal) (quoting Melancon v. Texaco, Inc., 659 F.2d 551, 553 (5th Cir. 1981)).
Accordingly, the Court must examine whether the referral to arbitration was correct.
B. The FAA Does Not Preempt the McGill Rule.
On the question of whether the FAA preempts the
McGill rule, the Court owes no deference to the state
court, and follows federal law. Vandevere v. Lloyd,
644 F.3d 957, 964 (9th Cir. 2011). If the FAA
preempted McGill, then no reconsideration of the
Court’s prior order compelling arbitration would be
warranted, and the Court would proceed to review the
arbitral award. The Court finds, however, that the
FAA does not preempt McGill.
In Sakkab v. Luxottica Retail N. Am., 803 F.3d
425 (9th Cir. 2015),1 the Ninth Circuit held that the
FAA does not preempt California’s rule, announced in
Iskanian v. CLS Transportation Los Angeles, LLC, 59
Cal. 4th 348 (2014), barring the predispute waiver of
representative claims under the Private Attorneys
General Act of 2004 (PAGA), Cal. Lab. Code. § 2698 et
seq. Following the two-step approach used by the Supreme Court in Concepcion, the Sakkab court first analyzed whether the Iskanian rule falls within the
plain language of the FAA savings clause for “such
grounds as exist at law or in equity for the revocation
of any contract.” 9 U.S.C. § 2. It held that the Iskanian
rule is a “generally applicable contract defense,” not a
ground for revocation of arbitration agreements only.
Sakkab, 803 F.3d at 433 (citing Concepcion, 563 U.S.
at 343).

Sakkab, like McGill, was decided after this Court’s September
25, 2013 order.
1

35a
Second, the Sakkab court turned to the question
of whether the Iskanian rule conflicts with the FAA’s
purposes, applying “ordinary conflict preemption
principles.” Id. It held that the Iskanian rule does not
“stand as an obstacle to the accomplishment of the
FAA’s objectives.” Id. at 427, 433 (quoting Concepcion,
563 U.S. at 343). It held that Iskanian “expresses no
preference regarding whether individual PAGA
claims are litigated or arbitrated. It provides only that
representative PAGA claims may not be waived outright.” Id. at 434 (citing Iskanian, 59 Cal. 4th at 384).
Therefore, the court held, the “Iskanian rule prohibiting waiver of representative PAGA claims does not diminish parties’ freedom to select informal arbitration
procedures.” Id. at 435. A class action is a procedural
device, which, the court explained, imposes burdens
on arbitration that “diminish the parties’ freedom to
select the arbitration procedures that best suit their
needs.” Id. at 436. By contrast, a PAGA action is a
statutory action by which an employee may seek penalties “as the proxy or agent of the state’s labor law
enforcement agencies.” Id. at 435 (quoting Iskanian,
59 Cal. 4th at 380). A PAGA action does not require
any special procedures, and therefore “prohibiting
waiver of such claims does not diminish parties’ freedom to select the arbitration procedures that best suit
their needs.” Id. at 436. In contrast to the requirements of class actions, nothing “prevents parties from
agreeing to use informal procedures to arbitrate representative PAGA claims.” Id.
The Sakkab court concluded that the potential
high stakes of a claim, alone, do not interfere with arbitration because the parties are free to contract for
whatever formal or informal procedures they choose
to handle the claim. Id. at 437-439. The FAA was not
“intended to require courts to enforce agreements that

36a
severely limit the right to recover penalties for violations that did not directly harm the party bringing the
action.” Id. at 440.
The same analysis applies here, with equal force.
The McGill rule is a generally-applicable contract defense. See 9 U.S.C. § 2. Moreover, claims for public injunctive relief do not require burdensome procedures
that could stand as an obstacle to FAA arbitration. On
the contrary, the parties are free to contract for any
procedures they choose for arbitrating, or litigating,
public injunctive relief claims. Therefore, the FAA
does not preempt California’s McGill rule.
C. The Arbitration Agreement Is “Null and Void”
by Its Own Terms.
The Court turns to the arbitration agreement in
this case. The parties agree that the first sentence of
subsection 2.2(6), quoted above, purports to waive the
arbitrator’s ability to award public injunctive relief. In
combination with the agreement in subsection 2.2(1)
that all claims and disputes, broadly defined, would
be arbitrated, this constitutes a waiver of public injunctive relief in all fora that violates the McGill rule.
The Court turns, therefore, to the consequences of
this waiver. Defendants contend that if the arbitrator
could not address Plaintiff’s claims for public injunctive relief, then this Court could address them after
the arbitrator resolved the issues that were within the
scope of the arbitration agreement. See Ferguson v.
Corinthian Colls., Inc., 733 F.3d 928, 937 (9th Cir.
2013) (if arbitrator concludes that it lacks authority to
enter injunction, then under language of applicable
arbitration agreement plaintiffs “may return to the
district court to seek their public injunctive relief”);

37a
see also Wiseman v. Tesla, Inc., 2 No. 17-cv-04798JFW, at 4 (C.D. Cal. Sept. 12, 2017) (holding that language of agreement allowed arbitrator to decide in
first instance whether public injunctive relief claims
were arbitrable). Moreover, Defendants argue, following this procedure would render Plaintiff’s public injunctive relief claim moot, because the arbitrator decided that Plaintiff had failed to meet his burden to
prove any of his underlying claims on the merits, making it unnecessary to reach the issue of injunctive relief.
This argument does not comport with the language of the arbitration agreement in this case. The
procedure to be followed here is dictated, not by other
courts’ findings regarding the procedures set forth in
other arbitration agreements, but by the specific procedures contracted to by the parties in the arbitration
agreement at issue here.
Plaintiff describes the final sentence of subsection
2.2(6) of the parties’ arbitration agreement as a “poison pill.” He contends that because, under the McGill
rule, the first sentence of subsection 2.2(6) is unenforceable, the entire arbitration provision in the contract (section 2.0) is also “null and void” due to the
“poison pill,” and no portion of the parties’ dispute is
subject to arbitration.
Defendants, on the other hand, contend that if the
waiver of any claim is found to be unenforceable, then
the arbitration agreement is “null and void” only with
The Court GRANTS Defendants’ administrative motion for
leave to file a statement of recent decision bringing Wiseman to
the attention of the Court, although it agrees with Plaintiff that
the arbitration agreement in this case is materially different
from that in Wiseman.
2

38a
regard to that one claim, leaving other claims subject
to arbitration. This interpretation would suggest an
approach similar to that taken in Ferguson, where the
arbitrator would decide all claims subject to arbitration, and Plaintiff could then return to this Court for
adjudication of his claim for public injunctive relief.
Defendants imply that the language of the “poison
pill” is at least ambiguous, and should be construed in
favor of permitting arbitration of all issues except
public injunctive relief because “any doubts concerning the scope of arbitrable issues should be resolved in
favor of arbitration, whether the problem at hand is
the construction of the contract language itself or an
allegation of waiver, delay, or a like defense to arbitrability.” Moses H. Cone Mem’l Hosp. v. Mercury
Constr. Corp., 460 U.S. 1, 24-25 (1983).
Defendants are correct that the Court will not
deny an order compelling arbitration “unless it may
be said with positive assurance that the arbitration
clause is not susceptible of an interpretation that covers the asserted dispute. Doubts should be resolved
in favor of coverage.” AT&T Techs., Inc. v. Commc’ns
Workers of Am., 475 U.S. 643, 650 (1986) (quoting
Steelworkers v. Warrior & Gulf Navigation Co., 363
U.S. 574, 582-583 (1960)). Here, however, there is no
room for doubt. The language of the “poison pill” sentence unambiguously provides that “the entirety of
this arbitration provision shall be null and void” if
subsection 2.2(6), waiving claims and relief on behalf
of other persons, is found to be unenforceable. Defendants’ proposed construction of this sentence ignores
the agreement’s use of the word “entirety” and attempts to read in limiting language that does not exist, such as adding the words “as to the specific claim”
at the end of the paragraph. It also is in tension with

39a
Defendants’ earlier position regarding the scope of the
“poison pill.”
It would, of course, have been permissible for the
parties to agree to an arbitration provision that was
limited in this way. They did not do so, however. The
contract as actually written declares the entire arbitration provision null and void because the waiver of
public injunctive relief is unenforceable. The Court
notes that although the parties need not have agreed
to so broad a “poison pill,” there was reason for them
to do so. See Sakkab, 803 F.3d at 437 (“The FAA contemplates that parties may simply agree ex ante to
litigate high stakes claims if they find arbitration’s informal procedures unsuitable.”).
The McGill rule constitutes a change in controlling law and is not preempted by the FAA. The waiver
of public injunctive relief in subsection 2.2(6) of the
parties’ agreement is therefore unenforceable, and
this triggers the “poison pill” rendering the entire arbitration provision null and void. The Court must
therefore grant reconsideration of, and rescind, its
September 25, 2013 order compelling arbitration and
vacate the arbitral award.
II. The Motions to Vacate or Confirm the Arbitral
Award.
Because the Court reconsiders the September 25,
2013 order granting Defendants’ renewed motion to
compel arbitration and stay this action, rescinds its
prior order compelling arbitration and vacates the arbitral award, the Court denies as moot Plaintiff’s motion to vacate the award under 9 U.S.C. § 10(a)(3) and
(4). The Court also denies Defendants’ motion to confirm the award. By this decision, the Court does not
reach or review the merits of the arbitrator’s decision.

40a
Defendants contend that the FAA statutorily bars
Plaintiff’s “attempt to evade confirmation of a final arbitration award” through reconsideration of this
Court’s order compelling arbitration. Opp. at 20.
When reviewing an arbitrator’s decision, this Court’s
review is “both limited and highly deferential.” Coutee
v. Barington Capital Grp., L.P., 336 F.3d 1128, 1132
(9th Cir. 2003) (internal quotation marks omitted).
The Court “must” confirm and enter judgment on an
award “unless the award is vacated, modified, or corrected as prescribed in sections 10 and 11” of the FAA.
9 U.S.C. § 9; see also Hall St. Assocs., L.L.C. v. Mattel, Inc., 552 U.S. 576, 587 (2008) (“There is nothing
malleable about `must grant,’ which unequivocally
tells courts to grant confirmation in all cases, except
when one of the `prescribed’ exceptions applies.”).
Here, the Court is not reviewing an arbitral
award, and the merits of the arbitrator’s decision are
irrelevant to the correctness of this Court’s order compelling arbitration in the first place. In Hall Street, by
contrast, the district court had reviewed the merits of
the arbitrator’s decision based on impermissible
grounds. The Hall Street parties had agreed by contract that the arbitral award could be vacated if the
arbitrator’s findings of fact were not supported by substantial evidence or the arbitrator’s conclusions of law
were erroneous. 552 U.S. at 579. The Supreme Court
held that these bases are not among the grounds for
vacatur of an arbitral award under the FAA. Because
the statutory grounds for vacatur are exclusive, the
district court could not vacate the award based on the
contractual grounds.
Likewise, the Ninth Circuit held in a recent unpublished memorandum disposition that where an arbitrator applies the law as it exists at the time of the

41a
arbitral award, an intervening change in law prior to
a court’s FAA review does not provide a basis to vacate
the award. Wulfe v. Valero Ref. Co.--California, 687 F.
App’x 646, 648 (9th Cir. 2017). In Wulfe, the arbitratonot the district court--held that the governing arbitration agreement’s waiver of representative PAGA
claims was enforceable. See Wulfe v. Valero Ref. Co.-California, 641 Fed. App’x 758, 761 (9th Cir. 2016)
(“Wulfe argues that the arbitrator exceeded her powers by allegedly ordering Wulfe to proceed with his
PAGA claim on an individual basis because such a
right cannot be waived.”); Wulfe v. Valero Ref. Co., No.
12-cv-05971-MWF, 2016 WL 9132900, *1 (C.D. Cal.
May 19, 2016) (noting that it was “the arbitrator’s order requiring Plaintiff to proceed with his PAGA
claims on an individual basis”). After the award was
issued, however, the California Supreme Court decided Iskanian and the Ninth Circuit decided Sakkab,
reaching a different decision about the enforceability
of PAGA waivers. The district court held that the
change in law did not justify vacating the arbitral
award under the rigorous standard of review provided
by the FAA. The Ninth Circuit explained that “the issue is not whether, with perfect hindsight, we can conclude that the arbitrator erred.” Wulfe, 687 F. App’x
at 648. Rather, in reviewing an arbitrator’s decision,
the Court must consider whether the arbitrator “recognized the applicable law and then ignored it.” Id.
(quoting Lagstein v. Certain Underwriters at Lloyd’s,
London, 607 F.3d 634, 641 (9th Cir. 2010)). In Wulfe,
the arbitrator did not act with manifest disregard of
any law that existed at the time of the award, and the
court therefore confirmed the arbitral award.
The issue here is different. The arbitrator was not
the one to conclude that Plaintiff’s waiver of public injunctive relief claims was enforceable; it was this

42a
Court that made that ruling in the order compelling
arbitration. The Court therefore does not review the
arbitrator’s decision under the FAA, but rather, reconsiders its own interlocutory order. As discussed, the
Court’s order compelling arbitration was erroneous in
light of the subsequent decisions in McGill and Sakkab, and must be rescinded. The Court, therefore, vacates the arbitral award without reviewing its merits
under the FAA.
CONCLUSION
For the foregoing reasons, the Court GRANTS
Plaintiff’s motion for reconsideration of the order compelling arbitration (Docket No. 273), rescinds that
prior order (Docket No. 257), and VACATES the arbitral award. The Court DENIES AS MOOT Plaintiff’s
motion to vacate the arbitral award (Docket No. 263);
and DENIES Defendants’ cross-motion to confirm the
arbitral award (Docket No. 274). The Court also
GRANTS Defendants’ administrative motion for leave
to file a statement of recent decision (Docket No. 285).
The Court shall schedule a case management conference by separate Clerk’s Notice.
IT IS SO ORDERED.
Dated: October 2, 2017

________________________
CLAUDIA WILKEN
United States District
Judge

43a
APPENDIX E
AMERICAN ARBITRATION ASSOCIATION
In the Matter of Arbitration Between:
Re: Steven McArdle v. AT&T Mobility LLC
CASE NO. 74-20-1400-0177
Award of Arbitrator
I, Stephen L. Porter, THE UNDERSIGNED ARBITRATOR, having been designated in accordance
with the arbitration agreement entered into between
the above-named parties and dated August 2007 (Ex.
505), and having been duly sworn, and having duly
heard the proofs and allegations of the Parties, do
hereby issue this AWARD, as follows:
Discussion
McArdle filed this claim initially in the San Francisco Superior Court. It was removed to federal court
and ordered to arbitration. The Second Amended
Complaint alleged causes of action for False Advertising, violation of the California Consumer Legal Remedies Act, Fraud, Deceit and/or Misrepresentation and
Unfair Business Practices. The core allegation, common to all causes of action, was that AT&T failed to
disclose that McArdle could be charged for incoming
calls when he was outside the U.S., including calls
which were not answered but were routed to
voicemail. As a result, McArdle alleges he was improperly charged $3.87 for three calls to his phone
while he was in Italy in March 2008. McArdle additionally seeks a refund of $2 for an international
roaming plan and $22 for international texting
charges, based on the contention that he would not
have used his phone in Italy if he had known about

44a
the charges for unanswered incoming calls. McArdle
bears the burden of proof as the claimant.
AT&T contends that McArdle was informed of the
possibility of such charges or reasonably should have
known about them from the disclosures that were
made to him. AT&T asserts various affirmative defenses additionally.
McArdle filed his claim as a class action complaint, and much of the evidence and argument was
developed in that context. However, this arbitration
claim involves only McArdle’s individual claim based
on his personal experience. McArdle had multiple interactions with AT&T about international roaming
charges before and after his trip. His experience may
have been atypical of the average consumer but that
is what is most relevant. What consumers in general
would or would not have understood from AT&T’s various disclosures about international roaming charges
is of lesser probative value here, where McArdle was
actively engaged in the topic.
Before his trip to Italy in March 2008, McArdle
was concerned about international phone charges and
investigated the subject. He understood that outside
his service area, including outside the U.S., different
rates applied for roaming. He looked at travel and
AT&T websites (including the main page and international and travel pages), talked to friends and visited
AT&T stores in Emeryville and San Francisco. He
called AT&T’s Customer Care directly to ask about a
rate plan for texting. He was told that he had to buy
an international plan to make or receive calls. From
his inquiries he knew calling internationally was expensive and that international plans had different
services and options. He understood fees were different for calls and text messages in the U.S. and abroad.

45a
He was unsure whether his phone would work abroad
without an international service plan.
McArdle testified that he has no recollection of
seeing or being told that he might be charged for calls
he didn’t answer if he left his phone on while abroad,
or of seeing any documentation regarding such
charges. At the airport before leaving for Italy, he
called AT&T and bought a text plan for $10/mo. in order to text and make calls during his trip, although he
didn’t plan to make calls.
Upon arriving in Europe, McArdle received a text
message stating: “Outside the U.S. international voice
and data rates apply. Unlimited domestic plans do not
apply. More at AT&T.com/wirelessinternational”.
McArdle did not visit this AT&T website on his trip.
In 2004, McArdle had bought phone service from
Cingular. The Terms of Service at that time were Exhibit 3 to the McArdle Deposition taken in March
2010. McArdle testified at deposition that this document looked familiar, but he didn’t recognize the specific document. AT&T introduced evidence, which was
not controverted, that the subsequent Terms of Service dated August 2007 (Ex. 505) was the contract in
effect at the time of McArdle’s March 2008 trip to Italy.
The AT&T website in effect just before McArdle’s
trip to Italy was McArdle Deposition Ex. 4, as to which
he testified at deposition that the pages “have a familiar look to them” (98:24), although he did not recall
the specific pages. At the hearing, McArdle testified
that he may have seen the International Service
Terms and Conditions (ATTM MCARDLE 00340274,
“p.-274”), which stated: “International Roaming.

46a
When outside the U.S., you will be charged normal roaming airtime rates when incoming calls are
routed to voicemail even if no message is left. International roaming rates apply for all calls placed or received while outside the U.S....” On cross-examination, McArdle testified that Deposition Ex. 4 looked
familiar to what he saw before the trip.
At the hearing, McArdle acknowledged that the
FAQ webpage “called out” the AT&T charges for calls
routed to voicemail (twice the normal charge for calls
deposited in voicemail when the phone is “active” even
if busy/no answer). p-272. He testified that he didn’t
see this language before his trip, although at deposition he was unsure (stating variously that he didn’t
recall reading it, that he disputed seeing it, that he
wasn’t aware of seeing it and that he didn’t dispute
seeing it). p-127:3-128:13. In his declaration for the
hearing, McArdle asserted he never saw this language
for his trip. ¶29. On cross-examination, however, he
reiterated that he doesn’t dispute having seeing the
above FAQ webpage before his trip.
A brochure entitled AT&T World was routinely
given to customers in March 2008. Ex. 502; Albright
testimony. McArdle testified that this was “possibly”
familiar to him. The brochure states: International
Roaming:...When outside the U.S., you will be charged
normal international roaming airtime rates when incoming calls are routed to voicemail, even if no message is left”. p. 12.
At his deposition, McArdle thought that the AT&T
roaming brochure “look[ed] familiar”, that he possibly
saw it before his trip to Italy and that he “believe[d]
that he might have looked at [it]” before the trip. Under the heading International Roaming, the brochure
stated: “When outside the U.S., you will be charged for

47a
both an incoming and outgoing call when incoming
calls are routed to voicemail even if no message is
left”. Depo. Ex. 9. McArdle thought the picture looked
familiar although the verbiage did not. He acknowledged the above information was intended to address
some of his allegations. Depo. Ex. 9, 188:11-190:17. At
the hearing, McArdle conceded that this disclosure
would have been explicit if he had seen it. He reiterated his deposition testimony that the picture of the
girl in Depo Ex. 9 looked familiar. On redirect, he testified that he recognized the picture of the two people
in Depo Ex. 9, but he didn’t recall where he saw it. He
reiterated that the verbiage wasn’t familiar. Depo Ex.
9. On re-cross, he stated “I believe I might have looked
at it [Ex. 9]” before the trip. He recalled getting something from the AT&T store, but not like the Ex. 9 brochure.
McArdle testified that after his trip he called
AT&T to complain about the roaming call charges and
also the text charges. He thought the text charges
were covered by the $10/mo. text plan he had purchased. AT&T refused to remove the charges.
AT&T called Charles Carter as a witness. He has
been the director of network engineering/international roaming since 2004. Carter testified that the
roaming calls to McArdle (Ex. 503, p. 5 of 7 and Ex.
504, p. 6 of 8) appeared to be mobile terminating calls
with only one charge for each, i.e. there was no trombone effect resulting in two charges per call. On crossexamination, he conceded the records were inadequate to confirm whether the Ex. 503 charges were
from one or two calls. However, to the extent that
McArdle claims the potential for double charges was
not adequately disclosed, he didn’t establish there
were any double (trombone) charges.

48a
David Albright oversaw AT&T’s international
roaming services to mobile customers in the spring of
2008. He testified that under AT&T’s policies and procedures in effect in the spring of 2008, various materials and links describing international charges were
provided to customers; these documents included Exs.
502 and 506 (or similar version), McArdle Depo Exs. 3
and 6, and Bennett Declaration Exs. 2, 14 and 19. Together these materials disclosed that customers would
incur charges for incoming calls routed to voicemail
while roaming internationally.
Chenell Cummings, a manager in AT&T’s Office
of the President, testified that AT&T’s records reflected that McArdle had called after his trip to complain about text message charges, but without mention of roaming charges. The call record did not indicate any credit had been requested, but it recorded
that his concern had been addressed. Ex. 525
(4/22/08). Cummings testified that if McArdle had
complained about the roaming charges of $3.87, they
probably would have been refunded given their small
size and AT&T’s policy to appease customers where
possible (given the cost to obtain new customers versus retaining existing ones). Cummings’ testimony indicated that the text plan McArdle purchased covered
text messages from the US to Italy (which is not what
he wanted); the text messages within Italy on his
phone bills were charged at the standard international text message rate ($.50). From this testimony,
it appeared that McArdle bought a text message plan
he didn’t need or want, which was the reason for his
complaint to AT&T after the trip. Since McArdle complained about text message charges he didn’t expect
to pay, it is reasonable to assume that he would also
have complained about roaming charges if he had the

49a
same expectation about them. No such complaint was
reported on the call record.
AT&T’s expert, Dr. Kent D. Van Liere, conducted
a survey on consumer perception about international
roaming features in 2008. The arbitrator does not find
his report and opinions of probative value in this case
for several reasons. The premise that consumers
would accurately recall their perceptions about something as relatively mundane as roaming features
seven years earlier is doubtful. The conclusions (percentages of survey participants who had understandings one way or another) are not persuasive either
way. And as noted above, McArdle was not an ordinary consumer, as he had a specific concern about
roaming charges and conducted due diligence in response.
On the evidence, McArdle failed to prove that he
was deceived about AT&T’s international roaming
charges, including those routed to voicemail, because
of inadequate disclosures. His testimony regarding
the various AT&T materials was inconsistent, and his
recollection was poor (understandable over time but
nevertheless weakening his proof). Rather, the evidence established that McArdle was provided with
multiple disclosures of the potential roaming charges
directly or through links and that he ignored them,
forgot about them or unreasonably misunderstood
their content.
For example, the evidence regarding the texting
plan indicates that McArdle was either inattentive to
information he received or forgot about it. The AT&T
materials disclose the $.50 charge for international
text messages. McArdle testified that he visited the
AT&T website with frequency before his trip and that
he expected to be charged for texting. Yet he made a

50a
last-minute call from the airport to purchase a texting
plan which he didn’t need. He later complained about
the text charges but accepted the explanation provided, according to AT&T’s call record. That episode
indicates that the misunderstanding was on
McArdle’s part.
McArdle sought a refund of the texting charges in
this proceeding based solely on the contention that he
would not have incurred the $22 in texting charges if
he had known about the prospect of incurring the
$3.87 in roaming charges. Given his awareness of international texting charges and his desire to text with
his friends during their cycling trip, the claim that he
would not have taken his phone to Italy if he had
known about the very modest roaming charges is not
credible. The admission that he expected to be
charged for text messaging negates any independent
claim for the $22.
The call record is a key document because it is a
contemporary business record, prior to the filing of the
original complaint. If McArdle had not understood
that international roaming charges might be imposed
for use of his phone in Italy, he would have objected to
those charges as well as to the texting charges, especially given his present claim that he would not have
bought the texting plan or taken his phone to Italy if
he had known about the roaming charges. As noted
above, the call record reported that his complaint was
about text charges only and that he accepted the explanation given.
Whether due to faulty recollection or otherwise, it
appears that McArdle’s claim about the roaming
charges evolved to fit the grounds for the class action
complaint. He didn’t assert a claim for the unnecessary $10 text plan or seek a refund of the $22 in text

51a
charges based upon nondisclosure. Rather, he sought
recovery of the text charges only by asserting a causal
connection to the roaming charges. The assertion of a
roaming charge claim which wasn’t made to AT&T
customer service (according to the call record), the
non-assertion of a colorable claim regarding the text
plan and the linkage of roaming to texting charges all
suggest that the present claim was shaped after-thefact to fit class action allegations that are not relevant
here. Scrutiny of the specific claims over time corroborates the basic conclusion stated above: based on the
materials provided to McArdle, or made readily available to him, he did not meet his burden of proof to establish that AT&T failed to disclose the international
roaming charges relevant to his trip to Italy in 2008.
In light of the above conclusions, it is not necessary to address the additional contentions of the parties (e.g., the adequacy/timeliness of notice of the
claim, the UCAN action or injunctive relief).
Award
1. Claimant McArdle shall take nothing on his
claim.
2. The administrative fees of the American Arbitration Association totaling $1,700.00, the
hearing room rental fee totaling $400.00 and
the compensation of the arbitrator, totaling
$16,253.49 shall be paid by Respondent AT&T
pursuant to the terms of the arbitration agreement. Therefore, AT&T shall reimburse
Claimant McArdle the sum of $200.00 representing that portion of arbitration costs previously advanced by Claimant.
3. The claim by McArdle was not frivolous or
brought for an improper purpose. Therefore,

52a
both parties shall bear their own attorneys’
fees and costs except as stated above in paragraph 2.
4. All claims and defenses not decided above are
denied.
Dated: September 16, 2016

___________________
Stephen L. Porter
Arbitrator

53a
APPENDIX F
2.0 HOW DO I RESOLVE DISPUTES WITH
AT&T?
2.1 Dispute Resolution By Binding Arbitration
PLEASE READ THIS CAREFULLY. IT AFFECTS YOUR RIGHTS.
Summary;
Most customer concerns can be resolved quickly
and to the customer’s satisfaction by calling our customer service department at 1-800-331-0500. In the
unlikely event that AT&T’s customer service department is unable to resolve a complaint you
may have to your satisfaction (or if AT&T has
not been able to resolve a dispute it has with you
after attempting to do so informally), we each
agree to resolve those disputes through binding
arbitration or small claims court instead of in
courts of general jurisdiction. Arbitration is more
informal than a lawsuit in court. Arbitration uses a
neutral arbitrator instead of a judge or jury, allows for
more limited discovery than in court, and is subject to
very limited review by courts. Arbitrators can award
the same damages and relief that a court can award.
Any arbitration under this Agreement will take
place on an individual basis; class arbitrations
and class actions are not permitted. For any nonfrivolous claim that does not exceed $75,000. AT&T
will pay all costs of the arbitration. Moreover, in arbitration you are entitled to recover attorneys’ fees from
AT&T to at least the same extent as you would be in
court.

54a
In addition, under certain circumstances (as explained below), AT&T will pay you more than the
amount of the arbitrator’s award and will pay your attorney (if any) twice his or her reasonable attorneys!
fees if the arbitrator awards you an amount that is
greater than what AT&T has offered you to settle the
dispute,
2.2 Arbitration Agreement
(1) AT&T and you agree to arbitrate all disputes
and claims between us. This agreement to arbitrate is
intended to be broadly interpreted. It includes, but is
not limited to;
•

•
•
•

claims arising out of or relating to any aspect
of the relationship between us, whether based
in contract, tort, statute, fraud, misrepresentation or any other legal theory;
claims that arose before this or any prior
Agreement (including, but not limited to,
claims relating to advertising);
claims that are currently the subject of purported class action litigation in which you are
not a member of a certified class; and
claims that may arise after the termination of
this Agreement.

References to “AT&T,” “you,” and “us” include our
respective subsidiaries, affiliates, agents, employees,
predecessors in interest, successors, and assigns, as
well as all authorized or unauthorized users or beneficiaries of services or Devices under this or prior
Agreements between us. Notwithstanding the foregoing, either party may bring an individual action in
small claims court. This arbitration agreement does
not preclude you from bringing issues to the attention

55a
of federal, state, or local agencies, including, for example, the Federal Communications Commission. Such
agencies can, if the law allows, seek relief against us
on your behalf. You agree that, by entering into this
Agreement, you and AT&T are each waiving the right
to a trial by jury or to participate in a class action. This
Agreement evidences a transaction in interstate commerce, and thus the Federal Arbitration Act governs
the interpretation and enforcement of this provision.
This arbitration provision shall survive termination of
this Agreement.
(2) A party who intends to seek arbitration must
first send to the other, by certified mail, a written Notice of Dispute (“Notice”). The Notice to AT&T should
be addressed to: Office for Dispute Resolution, AT&T,
1025 Lenox Park Blvd., Atlanta, GA 30319 (“Notice
Address”). The Notice must (a) describe the nature
and basis of the claim or dispute; and (b) set forth the
specific relief sought (“Demand”). If AT&T and you do
not reach an agreement to resolve the claim Within 30
days after the Notice is received, you or AT&T may
commence an arbitration proceeding. During the arbitration, the amount of any settlement offer made by
AT&T or you shall not be disclosed to the arbitrator
until after the arbitrator determines the amount, if
any, to which you or AT&T is entitle. You may download or copy a form Notice and a form to initiate arbitration at att.com/arbitration-forms.
(3) After AT&T receives notice at the Notice Address that you have commenced arbitration, it will
promptly reimburse you for your payment of the filing
fee, unless your claim is for greater than $75,000. (The
filing fee currently is $125 for claims under $10,000
but is subject to change by the arbitration provider. If

56a
you are unable to pay this fee, AT&T will pay it directly upon receiving a written request at the Notice
Address.) The arbitration will be governed by the
Commercial Arbitration Rules and the Supplementary Procedures for Consumer Related Disputes (collectively, “AAA Rules”) .of the American Arbitration
Association (“AAA”), as modified by this Agreement,
and will be administered by the AAA. The AAA Rules
are available online at adr.org. by calling the AAA at
1-800-778-7879, or by writing to the Notice Address.
(You may obtain information that is designed for nonlawyers about the arbitration process at att.com/arbitration-information.) The arbitrator is bound by the
terms of this Agreement. All issues are for the arbitrator to decide, except at that issues relating to the
scope and enforceability of the arbitration provision
are for the court to decide. Unless AT&T and you
agree otherwise, any arbitration hearings will take
place in the county. (or parish) of your billing address.
If your claim is for $10,000 or less, we agree that you
may choose whether the arbitration will be conducted
sorely on the basis of documents submitted to the arbitrator through a telephonic hearing, or by an in-person hearing as established by the AAA Rules. If your
claim exceeds $10,000, the right to a hearing will be
determined by the AAA Rules. Regardless of the manner in which the arbitration is conducted, the arbitrator shall issue a reasoned written decision sufficient
to explain the essential findings and conclusions on
which the award is based. Except as otherwise provided for herein, AT&T will pay all AAA filing, administration, and arbitrator fees for any arbitration initiated in accordance with the notice requirements
above. If, however, the arbitrator finds that either the
substance of your claim or the relief sought in the Demand is frivolous brought for an improper purpose (as

57a
measured by the standards set forth in Federal Rule
of Civil Procedure 11(b)), then the payment of all such
fees will be governed by the AAA Rules. In such case,
you agree to reimburse AT&T for all monies previously disbursed by it that are otherwise your obligation to pay under the AAA Rules. In addition, if you
initiate an arbitration in which you seek more than
$75,000 in damage, the payment of these fees will be
governed by the AAA rules.
(4) If, after finding in your favor in any respect on
the merits of your claim, the arbitrator issues you an
award that is greater than the value of AT&T’s last
written settlement offer made before an arbitrator
was selected, then AT&T will:
•
•

pay you the amount of the award or $10,000
(“the alternative payment”), whichever is
greater; and
pay your attorney, if any, twice the amount of
attorneys’ fees, and reimburse any expenses
(including expert witness fees and costs) that
your attorney reasonably accrues for investigating, preparing, and pursuing your claim in
arbitration (“the attorney premium”).

If AT&T did not make a written offer to settle the
dispute before an arbitrator was selected, you and
your attorney will be entitled to receive the alternative payment and the attorney premium, respectively,
if the arbitrator awards you any relief on the merits.
The arbitrator may make rulings and resolve disputes
as to the payment and reimbursement of fees, expenses, and the alternative payment and the attorney
premium at any time during the proceeding and upon
request from either party made within 14 days of the
arbitrator’s ruling on the merits.

58a
(5) The right to attorneys’ fees and expenses discussed in paragraph (4) supplements any right to attorneys’ fees and expenses you may have under applicable law. Thus, if you would be entitled to a larger
amount under the applicable law, this provision does
not preclude the arbitrator from awarding you that
amount. However, you may not recover duplicative
awards of attorney’s fees or costs. Although under
some laws AT&T may have a right to an award of attorneys’ fees and expenses if it prevails in an arbitration, AT&T agrees that it will not seek such an award.
(6) The arbitrator may award declaratory or injunctive relief only in favor of the individual party
seeking relief and only to the extent necessary to provide relief warranted by that party’s individual claim.
YOU AND AT&T AGREE THAT EACH MAY
BRING CLAIMS AGAINST THE OTHER ONLY
IN YOUR OR ITS INDIVIDUAL CAPACITY, AND
NOT AS A PLAINTIFF OR CLASS MEMBER IN
ANY PURPORTED CLASS OR REPRESENTATIVE PROCEEDING. Further, unless both you and
AT&T agree otherwise, the arbitrator may not consolidate more than one person’s claims, and may not otherwise preside over any form of a representative or
class proceeding. If this specific provision is found to
be unenforceable, then the entirety of this arbitration
provision shall be null and void.
(7) Notwithstanding any provision in this Agreement to the contrary, we agree that if AT&T makes
any future change to this arbitration provision (other
than a change to the Notice Address) during your Service Commitment, you may reject any such change by
sending, us written notice within 30 days of the
change to the Arbitration Notice Address provided

59a
above. By rejecting any future change, you are agreeing that you will arbitrate any dispute between us in
accordance with the language of this provision.

60a
APPENDIX G
Complaints filed since McGill expressly stating
that the plaintiffs seek public injunctive relief:
Case
1

Dixon v.
Fast Auto
Loans,
Inc., No.
20STCV04
632 (Cal.
Super. Ct.
Feb. 04,
2020)

2

Michalak
v. Exeter
Fin. LLC,
No.
20STCV03
174 (Cal.
Super. Ct.
Jan. 24,
2020)

3

Chong v.
Hormel
Foods
Corp., No.

Statute(s)
FAL;
UCL

Request for Public Injunctive Relief
“Plaintiff, individually and on behalf of
the California general
public” seeks “[a] public injunction sufficient to prevent Defendant from continuing to falsely advertise their Consumer
Loan products in or
from California.”
Compl. p. 30.
UCL “Plaintiff files this
cause of action individually, and on behalf of the general
public, to challenge
and to remedy Defendants’ business
practices. * * * Pursuant to Business and
Professions Code §
17203, Plaintiff seeks
an injunction.”
Compl. ¶¶ 54, 61.
CLRA; “Plaintiff seeks public
UCL; injunctive relief that
FAL has the primary pur-

61a
19-cv10944
(C.D. Cal.
Dec. 30,
2019)
4

5

Chong v.
Nestle Waters N.
Am., Inc.,
No. 19-cv10901
(C.D. Cal.
Dec. 27,
2019)
DeAnda v.
DoorDash,
Inc., No.
19-cv08305
(N.D. Cal.
Dec. 20,
2019)

pose and effect of prohibiting unlawful acts
that threaten future
injury to the general
public.” Compl. ¶¶ 41,
47, 54.
CLRA; “Plaintiff seeks public
UCL; injunctive relief that
FAL has the primary purpose and effect of prohibiting unlawful acts
that threaten future
injury to the general
public.” Compl. ¶¶ 56,
62, 69.
CLRA; “Additionally, PlainUCL; tiff seeks all available
FAL injunctive relief, including public injunctive relief requiring
DoorDash to promulgate corrective advertising advising the
Class and general
public about the
change in DoorDash’s
payment policy (to the
extent its payment
policy has changed)
and enjoin DoorDash
from reverting to its
previous, misleading
policy.” Compl. ¶¶ 54,
64, 71.

62a
6

Craig v.
Corteva,
Inc., No.
19-cv07923
(N.D. Cal.
Dec. 3,
2019)

UCL

7

Iturrios v.
Hollywood
Park Casino Co.,
No.
19STCV40
971 (Cal.
Super. Ct.
Nov. 13,
2019)
Connell v.
Heartland
Express,
Inc., No.

UCL

8

UCL

“Named Plaintiffs, suing on behalf of themselves, the putative
class members, and
the general public,
also seek restitution
and injunctive relief
under California law
for Defendants’ unlawful, unfair, and
fraudulent business
practices which have
deprived their employees of their rights
under California labor
laws and regulations,
in order to reduce
their payroll costs
and increase profits,
in violation of applicable laws.” Compl. ¶ 3.
“Plaintiff seeks injunctive relief on behalf of the general
public, enjoining Defendants’ practices.”
Compl. ¶ 34.

Seeking “on behalf of
the general public * *
* [a]n order enjoining

63a
19-cv09584
(C.D. Cal.
Nov. 7,
2019)

9

10

11

Raposo v.
Gallaway,
No.
19SMCV01
913 (Cal.
Super. Ct.
Oct. 29,
2019)
Espinoza v.
Walmart,
Inc., No.
19-cv01972
(S.D. Cal.
Oct. 11,
2019)

Colopy v.
Uber
Techs.,
Inc., No.
19-cv06462
(N.D. Cal.

UCL

UCL;
CLRA

UCL

Defendants from further unfair and unlawful business practices in violation of
Business & Professions Code §§ 17200 et
seq.” Compl. pp. 2122.
“Plaintiffs seek public
injunctive relief to
prevent Defendants
from continuing with
the unfair and unlawful business acts and
practices.” Compl. ¶
62.
“Plaintiff seeks public
injunctive relief to
benefit the general
public directly by
bringing an end to
Defendants’ unfair
business practices described herein, which
threaten future injury
to the general public.”
Compl. ¶ 100.
“The injunction that
Plaintiff seeks is in
the nature of a public
injunction and is not
solely for the benefit
of himself and other
Uber drivers. Instead, ordering Uber

64a
Oct. 8,
2019)

12

Garcia v.
Dedicated
Fleet Sys.,
Inc.,
Docket No.
19STCV34
307 (Cal.
Super. Ct.
Sept. 27,
2019)

13

Saldivar v.
The
Cookware
Co. (USA),
No. 19-cv06014
(N.D. Cal.
Sept. 25,
2019)

to comply with the
California Labor Code
is in the public interest because Uber’s violation of the Labor
Code and Wage Orders diminishes labor
standards more generally in the California economy and particularly in the transportation industry.”
Compl. ¶ 46.
UCL “[P]laintiff, on behalf
of himself and all others similarly situated
and on behalf of the
general public” seeks
“[a]n order enjoining
Defendants from further unfair and unlawful business practices in violation of
[the UCL].” Compl.
pp. 15-16.
CLRA; “Plaintiff, on behalf of
UCL; herself and all other
FAL similarly situated
California consumers,
and as appropriate,
on behalf of the general public of the
state of California,
seeks injunctive relief
prohibiting Defendant

65a

14

McRay v.
Uber
Techs.,
Inc., No.
19-cv05723
(N.D. Cal.
Sept. 11,
2019)

15

Lopez v.
ECO Tech.,
Inc., No.
19STCV32
269 (Cal.
Super. Ct.
Sept. 11,
2019)
Arnold v.
Hearst
Magazine

16

continuing these unlawful practices.”
Compl. ¶ 114.
UCL “The injunction that
Plaintiff seeks is in
the nature of a public
injunction and is not
solely for the benefit
of himself and other
Uber drivers. Instead, ordering Uber
to comply with the
California Labor Code
is in the public interest because Uber’s violation of the Labor
Code and Wage Orders diminishes labor
standards more generally in the California economy and particularly in the transportation industry.”
Compl. ¶ 46.
UCL “Plaintiffs seek a public injunction ordering
Ygrene and Eco to immediately cease the
unlawful and unfair
acts and practices alleged herein.” Compl.
¶ 130.
CLRA; Plaintiffs seeks “a
UCL public injunction for

66a

17

Media,
Inc., No.
201900047733
(Cal. Super. Ct.
Sept. 10,
2019)
Dougherty
v. TitleMax
of Cal.,
Inc., No.
19-cv01709
(C.D. Cal.
Sept. 6,
2019)

the benefit of the People of the State of California.” Compl. p. 18.

UCL;
CLRA

18

Broome v.
CRST Expedited,
Inc., No.
19-cv07664
(C.D. Cal.
Sept. 4,
2019)

UCL

19

Javitch v.
Web Listing Experts, LLC,
No. 19-cv-

CLRA

“Plaintiff seeks public
injunctive relief to
benefit the general
public directly by
bringing an end to
Defendant TitleMax’s
unlawful business
practices which
threaten future injury
to the general public.”
Compl. ¶¶ 49, 59.
Seeking “on behalf of
the general public * *
* [a]n order enjoining
Defendants from further unfair and unlawful business practices in violation of
Business & Professions Code §§ 17200 et
seq.” Compl. pp. 1819.
“Consumers who suffer damage due to an
unlawful business
practice may bring an

67a
05419
(N.D. Cal.
Aug. 28,
2019)

20

Bailey v.
Blue
Apron,
LLC, No.
18-cv07000
(N.D. Cal.
Aug. 22,
2019)

UCL

21

Ball v. The
Local Pub
& Grill,
Inc., No.
19STCV29

UCL

action to enjoin a corporation’s unlawful
business practices
throughout the state
on behalf of the general public. * * *
Plaintiff is entitled to
injunctive relief.”
Compl. ¶¶ 38-39.
“Plaintiff is entitled to
an injunction and
other equitable relief
against such unlawful
practices in order to
prevent future damage, for which there is
no adequate remedy
at law, and to avoid a
multiplicity of lawsuits. Plaintiff brings
this cause individually and as members
of the general public
actually harmed and
as a representative of
all others subject to
BLUE APRON and/or
DOES unlawful acts
and practices.” Am.
Compl. ¶ 131.
“Pursuant to [the
UCL], Plaintiff is entitled to, and hereby
seeks * * * a perma-

68a
550 (Cal.
Super. Ct.
Aug. 19,
2019)

22

23

24

Fonseca v.
HewlettPackard
Co., No.
37-201700045630CU-WTCTL (Cal.
Super. Ct.
Aug. 12,
2019)
Fernandez
v. Debt Assistance
Network,
LLC, No.
19-cv01442
(S.D. Cal.
Aug. 1,
2019)
Moreno v.
Disney Interactive
Studios,
Inc., No.
201900039785

UCL

UCL;
CLRA

nent and public injunction prohibiting
Defendants from engaging in the acts
complained of in the
operative Complaint.”
Compl. ¶ 143.
“Plaintiff seeks, on
his own behalf and on
behalf of the other
members of the Plaintiff Classes and on behalf of the general
public, equitable and
injunctive relief.”
Compl. ¶ 175.
“Plaintiffs and the
general public are
also entitled to and do
seek injunctive relief
prohibiting such conduct in the future and
to recover money
damages.” Compl. ¶
105.

CLRA; Plaintiffs seek “inUCL junctive relief, including a public injunction for the benefit of
the People of the
State of California.”
Compl. p. 22.

69a

25

26

27

(Cal. Super. Ct.
July 30,
2019)
Arellano v.
Mead
Johnson
Nutrition
Co., No.
19-cv06462
(C.D. Cal.
July 25,
2019)
Barba v.
Old Navy,
LLC, No.
CGC19577
743 (Cal.
Super. Ct.
July 18,
2019)
Bejune v.
CashCall,
Inc., No.
19-cv01373
(C.D. Cal.
July 15,
2019)

CLRA

“Plaintiff seeks injunctive relief under
the CLRA to prohibit
the unlawful acts alleged herein, which
threaten ongoing and
future injury to the
general public.”
Compl. ¶ 53.

CLRA; “Plaintiffs each indiFAL; vidually seek public
UCL injunctive relief, under the [CLRA, FAL
and UCL], to protect
the general public
from Old Navy’s false
advertisements and
omissions.” Compl. ¶¶
136, 154, 174.
UCL; “Plaintiff seeks pubCLRA lic injunctive relief
to benefit the general public directly
by bringing an end
to Defendant’s unlawful business
practices that are
currently causing
damages and con-

70a

28

Cook v.
Transport
Corp. of
Am., Inc.,
No. 19-cv01202
(C.D. Cal.
June 28,
2019)

29

Simon v.
WilliamsSonoma,
Inc., No.
CGC19576
923 (Cal.
Super. Ct.
June 24,
2019)

30

Vianu v.
AT&T Mobility, Inc.,
No. 19-cv03602
(N.D. Cal.
June 20,
2019)

tinue to threaten future injury to the general public.” Compl. ¶
88.
UCL Seeking “on behalf of
the general public
* * * [a]n order enjoining Defendants
from further unfair
and unlawful business practices in violation of Business &
Professions Code §§
17200 et seq.” Compl
pp. 20-21.
CLRA; Plaintiff individually
FAL; seeks public injuncUCL tive relief, under the
[FAL, CLRA, and
UCL], to protect the
general public from
Williams-Sonoma’s
false reference price
advertising.” Compl.
¶¶ 99, 117, 134.
CLRA; “Plaintiffs, by this acUCL; tion, seek a public inFAL junction to enjoin
AT&T from its false
advertising practice
and to require AT&T
to disclose to the consuming public, in advance, the true costs
consumers will pay

71a

31

Javitch v.
Taylor, No.
19-cv03417
(N.D. Cal.
June 14,
2019)

32

Tamboura
v. Singer,
No. 19-cv03411
(N.D. Cal.
June 14,
2019)

33

Mitchell v.
The Taunton Press,
Inc., No.
201900029474

for its wireless services.” Compl. ¶ 10.
CLRA “Consumers who suffer damage due to an
unlawful business
practice may bring an
action to enjoin a corporation’s unlawful
business practices
throughout the state
on behalf of the general public. * * *
Plaintiff is entitled to
injunctive relief under
Cal. Civ. Code
§1780(a).” Compl. ¶¶
56-57.
UCL “Plaintiffs and the
general public, including the individual applicant’s [sic] and
their parents are entitled to a public injunction, under California Business and
Professions Code §
17203, 17204” to stop
Defendants’ wrongful
acts. Compl. ¶ 553.
CLRA; “[F]or the benefit of
UCL the general public of
the State of California, Plaintiff seeks
an injunction prohibiting Defendants from

72a

34

35

36

(Cal. Super. Ct.
June 10,
2019)
Javitch v.
Major
League
Capital,
LLC, No.
19-cv03041
(N.D. Cal.
June 2,
2019)

Kaufman
v. Verizon
Commc’ns,
Inc., No.
RG190214
74 (Cal.
Super. Ct.
May 31,
2019)
Olosoni v.
H&R
Block, Inc.,
No. CGC19-576093
(Cal. Super. Ct.
May 17,
2019)

CLRA

UCL

UCL;
FAL;
CRLA

continuing their unlawful practices as alleged herein.” Compl.
¶¶ 40, 48.
“Consumers who suffer damage due to an
unlawful business
practice may bring an
action to enjoin a corporation’s unlawful
business practices
throughout the state
on behalf of the general public. * * *
Plaintiff is entitled to
injunctive relief.”
Compl. ¶¶ 75-76.
Plaintiff seeks “public
injunctive and restitutionary relief
against Verizon for
both Classes for violation of the Unfair
Business Practice
Act.” Compl. p. 18.
“Plaintiffs, on behalf
of themselves, the
Classes, and the general public, requests
[sic] * * * [a] public
injunction temporarily and permanently
enjoining Defendants
from continuing the

73a

37

Perez v.
Nissan
Auto. of
Mission
Hills, Inc.,
No.
19STCV15
690 (Cal.
Super. Ct.
May 06,
2019)

UCL

38

Macklin v.
Intuit, Inc.,
No.
19CV3472
08 (Cal.
Super. Ct.
May 01,
2019)

FAL

unlawful, deceptive,
fraudulent, and unfair business practices
alleged in this Complaint.” Compl. p. 50.
“Plaintiff asserts
these claims under
the ‘fraudulent,’ ‘unlawful,’ and ‘unfair’
prongs of the [UCL]
as she is a representative of an aggrieved group and as
a private attorney
general on behalf of
the general public. * *
* Plaintiff seeks an
order of this Court enjoining defendants
from continuing to engage in unlawful and
unfair business practices, and any other
act prohibited by the
UCL.” Compl. ¶¶ 108,
109, 131.
“Plaintiffs seek, on
behalf of themselves
and the general public, an injunction to
prohibit Defendant
from continuing to engage in the false, misleading and deceptive

74a

39

40

41

Dominguez
v. Nissan
North
America,
Inc., No.
19STCV14
157 (Cal.
Super. Ct.
Apr. 23,
2019)
Carias v.
Pointdirect
Transp.,
Inc.,
Docket No.
19STCV14
294 (Cal.
Super. Ct.
Apr. 23,
2019)

UCL

King v.
Consumer
Portfolio
Servs.,
Inc., No.
19STCV12
769 (Cal.
Super. Ct.

UCL

UCL

advertising and marketing practices complained of herein.”
Compl. ¶ 124.
“Plaintiff is entitled to
a public injunction
under [the UCL].”
Compl. ¶ 159.

“Plaintiff, on behalf of
himself and all others
similarly situated and
also on behalf of the
general public” seeks
“[a]n order enjoining
Defendants from further unfair and unlawful business practices in violation of
[the UCL].” Compl. p.
21.
“Pursuant to Business
and Professions Code
§ 17203, Plaintiff
seeks a public injunction restraining defendants from engaging in the above described acts and practices.” Compl. ¶ 28.

75a

42

43

Apr. 12,
2019)
Trevino v.
Smashburger IP
Holder
LLC, No.
19-cv02794
(C.D. Cal.
Apr. 11,
2019)

Calderon
v. Kate
Spade &
Co., LLC,
No. 19-cv00674
(S.D. Cal.
Apr. 11,
2019)

FAL

FAL

“Plaintiff, on behalf of
herself and all other
similarly situated
consumers, and as appropriate, on behalf of
the general public,
seek restitution and
injunctive relief to
prohibit Smashburger
from continuing the
unfair, unlawful, and
fraudulent practices
alleged herein, and
any other relief
deemed proper by the
Court.” Compl. ¶ 61.
“Plaintiff, on behalf of
herself and all other
similarly situated
consumers, and as appropriate, on behalf of
the general public,
seek restitution and
injunctive relief to
prohibit Defendant
from continuing the
unfair, unlawful, and
fraudulent practices
alleged herein, and
any other relief
deemed proper by the
Court.” Compl. ¶ 57.

76a
44

45

46

Gomez v.
CCAP Auto
Lease Ltd.,
No.
19STCV12
004 (Cal.
Super. Ct.
Apr. 08,
2019)
Jane Doe
No. 1 v.
UBER
Techs.,
Inc., No.
19STCV11
874 (Cal.
Super. Ct.
Apr. 05,
2019)

UCL

Rodriguez
v. Nissan
North
America,
Inc., No.
19STCV11
119 (Cal.
Super. Ct.

UCL

UCL

“Pursuant to Business
and Professions Code
§ 17203, plaintiff
seeks a public injunction enjoining defendants from engaging in
such acts and practices as hereinabove
alleged.” Compl. ¶ 30.
“[O]n behalf of the
members of the general public, Plaintiffs
seek injunctive relief,
restitution of all unlawfully withheld
funds, and the disgorgement of all unlawfully earned profits obtained by Uber
Defendants as a result of Uber Defendants’ alleged acts
and/or omissions as
described in this
Complaint.” Compl. ¶
121.
“Plaintiffs are entitled
to a public injunction
under Business and
Professions Code section 17535.” Compl. ¶
172.

77a

47

48

49

50

Apr. 02,
2019)
Murphy v.
Twitter,
Inc., No.
CGC19573
712 (Cal.
Super. Ct.
Mar. 28,
2019)
De Jesus v.
Renew Fin.
Corp. II,
No. 19CECG00867 (Cal.
Super. Ct.
Mar. 08,
2019)
Rivas v.
Nissan
North
America,
Inc., No.
19STCV07
171 (Cal.
Super. Ct.
Mar. 01,
2019)
Hernandez
Jr. v. Nissan North
America,

UCL

UCL

“Murphy, on behalf of
herself, those similarly-situated, and
the general public,
therefore seeks injunctive relief to remedy Twitter’s unlawful conduct, and prevent its repetition.”
Compl. ¶ 144.
“Pursuant to Business
and Professions Code
§ 17203, Plaintiffs
seek a public injunction.” Compl. ¶ 15.

UCL;
FAL

“Plaintiff is entitled to
a public injunction
under Business and
Professions Code section 17535.” Compl. ¶
172; see also ¶ 162
(similarly seeking
public injunctive relief under the FAL).

UCL

“Plaintiff is entitled to
a public injunction
under Business and

78a

51

52

53

Inc., No.
19STCV05
737 (Cal.
Super. Ct.
Feb. 15,
2019)
Lucero v.
Nissan
North
America,
Inc., No.
19STCV05
729 (Cal.
Super. Ct.
Feb. 15,
2019)
Gallegos v.
Nissan
North
America,
Inc., No.
19STCV05
119 (Cal.
Super. Ct.
Feb. 15,
2019)
Porter v.
Nissan
North
America,
Inc., No.
19STCV05
296 (Cal.
Super. Ct.

Professions Code section 17535.” Compl.
¶¶ 148, 159, 167.

CLRA, “Plaintiffs are entitled
FAL; to a public injunction
UCL under Business and
Professions Code section 17535.” Compl. ¶
166.

UCL

“Plaintiffs are entitled
to a public injunction
under Business and
Professions Code section 17535.” Compl. ¶
176.

UCL

“Plaintiffs are entitled
to a public injunction
under Business and
Professions Code section 17535.” Compl. ¶
185.

79a

54

55

56

57

Feb. 15,
2019)
Sandoval
v. Nissan
North
America,
Inc., No.
19STCV04
984 (Cal.
Super. Ct.
Feb. 13,
2019)
Munive v.
Nissan
North
America,
Inc., No.
19STCV04
970 (Cal.
Super. Ct.
Feb. 13,
2019)
Guzman v.
Nissan
North
America,
Inc., No.
19STCV04
943 (Cal.
Super. Ct.
Feb. 13,
2019)
Estrada v.
Nissan
North

UCL

“Plaintiffs are entitled
to a public injunction
under Business and
Professions Code section 17535.” Compl. ¶
163.

UCL

“Plaintiffs are entitled
to a public injunction
under Business and
Professions Code section 17535.” Compl. ¶
194.

UCL

“Plaintiffs are entitled
to a public injunction
under Business and
Professions Code section 17535.” Compl. ¶
177.

UCL

“Plaintiffs are entitled
to a public injunction
under Business and

80a

58

59

America,
Inc., No.
19STCV04
786 (Cal.
Super. Ct.
Feb. 13,
2019)
Javitch v.
Lifestyle
Design
Int’l, LLC,
No. 19-cv00470
(N.D. Cal.
Jan. 27,
2019)

Javitch v.
American
Stimulus
Funding
Corp., No.
19-cv00354
(N.D. Cal.
Jan. 22,
2019)

Professions Code section 17535.” Compl. ¶
176.

CLRA

CLRA

“Consumers who suffer damage due to an
unlawful business
practice may bring an
action to enjoin a corporation’s unlawful
business practices
throughout the state
on behalf of the general public. * * *
Plaintiff is entitled to
injunctive relief under
Cal. Civ. Code §
1780(a).” Compl. ¶¶
46-47.
“Consumers who suffer damage due to a
corporation’s unlawful business practice
may bring an action
to enjoin the practice
throughout the state
on behalf of the general public. * * *
Plaintiff is entitled to
injunctive relief under
Cal. Civ. Code §

81a

60

Rhyner v.
Stanford
Health
Care, No.
19CV3412
48 (Cal.
Super. Ct.
Jan. 18,
2019)

UCL

61

Eiess v.
USAA Fed.
Savings
Bank, No.
19-cv00108
(N.D. Cal.
Jan. 8,
2019)
Community Tenants’ Ass’n
v. Valstock
Mgmt. Co.,
No. CGC18-566208
(Cal. Super. Ct.

UCL;
CLRA

62

UCL

1780(a).” Compl. ¶¶
36-37.
“The Plaintiff for herself and on behalf of
the general public,
and all others similarly situated, brings
an action for monetary damages for failure to pay wages as
well as for injunctive
relief, declaratory relief and restitution for
Defendant’s violations
of [the UCL].” Compl.
¶ 1.
“Plaintiff brings this
action on behalf of
herself and a class of
all similarly situated
consumers, and the
general public with
respect to injunctive
relief, against Defendant.” Compl. ¶ 1.
“Plaintiffs pray for relief against Defendants as follows: * * *
For public injunctive
relief pursuant to
Business & Professions Code Section
17203 and under this
Court’s equitable
power to award such

82a

63

64

Jan. 1,
2019)
Yeomans v.
World Fin.
Grp. Ins.
Agency,
Inc., No.
CGC18572
397 (Cal.
Super. Ct.
Dec. 28,
2018)
Ortega v.
Watkins
and Shepard Trucking, Inc.,
No. 18-cv02414
(C.D. Cal.
Dec. 20,
2018)

UCL

UCL

relief.” Am. Compl. p.
45.
“Plaintiffs also seek
injunctive relief and
on behalf of the general public, to prohibit
Defendants from continuing to engage in
the unlawful, deceptive, and unfair business practices complained of herein.”
Compl. ¶ 163.
“Plaintiff is entitled to
an injunction and
other equitable relief
against such unlawful
practices in order to
prevent future damage, for which there is
no adequate remedy
at law, and to avoid a
multiplicity of lawsuits. Plaintiff brings
this cause individually and as members
of the general public
actually harmed and
as a representative of
all others subject to
[Defendants’] unlawful acts and practices.” Am. Compl. ¶
169.

83a
65

66

67

Abdeljabbar v. Lyft
Inc., No.
18-cv07482
(N.D. Cal.
Dec. 12,
2018)
Cohen v.
MYLIFE.COM
, Inc., No.
201800060911
(Cal. Super. Ct.
Dec. 03,
2018)

UCL

“Plaintiffs seek a public injunction on behalf of all Lyft drivers
in California.” Compl.
¶ 82.

UCL

Sherman
v. Schneider Nat’l
Carriers,
Inc., No.
18-cv08609
(C.D. Cal.
Nov. 2,
2018)

UCL

“Plaintiff and members of the general
public have suffered
injury in fact and
have lost money as a
result of Defendant’s
unfair competition
and are herefore entitled to injunctive relief available under
[the UCL].” Compl. ¶
44.
“Plaintiff is entitled to
an injunction and
other equitable relief
against such unlawful
practices in order to
prevent future damages, for which there
is no adequate remedy at law, and to
avoid a multiplicity of
lawsuits. Plaintiff
brings this cause individually and as members of the general
public actually

84a

68

69

70

71

Moses v.
Wells
Fargo
Bank,
N.A., No.
18-cv06679
(N.D. Cal.
Nov. 2,
2018)
Chute v.
Lyft, Inc.,
No.
CGC18571
063 (Cal.
Super. Ct.
Nov. 01,
2018)
Rubio v.
Orgain,
Inc., No.
18-cv02237
(C.D. Cal.
Oct. 19,
2018)
Jacinto v.
Autoland
LLC, No.
201800052427
(Cal. Super. Ct.

UCL

UCL

CLRA

harmed.” Am. Compl.
¶ 157.
“Plaintiff, on behalf of
herself and all others
similarly situated and
also on behalf of the
general public” seeks
“[a]n order enjoining
Defendants from further unfair and unlawful business practices.” Compl. p. 10.
“Plaintiff brings this
action for a public injunction to halt Lyft’s
ongoing violations of
the California Labor
Code.” Compl. ¶ 1.

“Plaintiffs, on behalf
of themselves and all
other similarly situated consumers, and
as appropriate, on behalf of the general
public, seek injunctive
relief.” Compl. ¶ 49.
CLRA; As a fourth cause of
UCL action, Plaintiff seeks
“Public Injunctive Relief” for “unlawful, unfair, and fraudulent
practice[s].” Compl.
¶¶ 31-37.

85a

72

Oct. 16,
2018)
Espinoza v.
Big 5
Corp., No.
RG189243
41 (Cal.
Super. Ct.
Oct. 12,
2018)

UCL

73

Chadwick
v. Landmark Pavers Inc.,
No. 30201801023051
(Cal. Super. Ct.
Oct. 4,
2018)

UCL

74

Kendig v.
Exxonmobil Oil
Corp., No.
BC722119
(Cal. Super. Ct.
Sept. 18,
2018)

UCL

“Pursuant to the
UCL, Plaintiff, Class
Members, and the
general public, are entitled to injunctive relief against Defendants ongoing * * *
unlawful business
practices.” Compl. ¶
63.
“[O]n behalf of
CHADWICK and all
Affected Members of
the General Public”
the Fifth Cause of Action seeks “Restitution and Injunctive
Relief (Violation of
Business and Professions Code § 17200, et
seq.).” Compl. p. 7
(emphasis omitted).
“Named Plaintiffs, suing on behalf of themselves, the putative
class members, and
the general public,
also seek restitution
and injunctive relief
under California law
for Defendants’ unlawful, unfair, and
fraudulent business

86a

75

Foster v. APara
Transit
Corp.,
Docket No.
RG189209
85 (Cal.
Super. Ct.
Sept. 18,
2018)

76

Mendez de
Correa v.
Mossy Nissan, Inc.,
No. 201800046741
(Cal. Super. Ct.
Sept. 14,
2018)

77

Wing v.
Rockport

practices which have
deprived its employees of their rights under California labor
laws and regulations.”
Compl. ¶ 3.
UCL In Complaint brought
by Plaintiff “on behalf
of himself, all others
similarly situated,
and on behalf of the
general public,” Plaintiff seeks “[t]hat defendants further be
enjoined to cease and
desist from unfair
competition in violation of [the UCL].”
Compl. pp. 1, 34-35.
CLRA; Alleging in Fifth
UCL Cause of Action seeking “Public Injunctive
Relief” that “[t]he
Court should enjoin
the defendant to ensure compliance with
the CLRA, UCL, and
ASFA, as well as
ent[er] an order requiring defendant to
immediately cease the
wrongful conduct.”
Am. Compl. ¶ 49.
UCL In Complaint brought
by Plaintiff “on behalf

87a
Administrative Services, LLC,
No.
BC719077
(Cal. Super. Ct.
Aug. 22,
2018)
78

Barbanell
v. One
Med. Grp.,
Inc., No.
CGC18566
232 (Cal.
Super. Ct.
Aug. 02,
2018)

79

Hurst v.
One Kings
Lane LLC,
Docket No.
CGC18568
256 (Cal.
Super. Ct.
July 20,
2018)
Lotsoff v.
Wells
Fargo
Bank,
N.A., No.

80

of herself, all others
similarly situated,
and on behalf of the
general public,” Plaintiff seeks “[t]hat Defendant further be enjoined to cease and
desist from unfair
competition in violation of [the UCL].”
Compl. pp. 1, 30-31.
CLRA; “Plaintiffs seek actual
FAL; damages, punitive
UCL damages, restitution,
and an injunction on
behalf of the general
public to prevent One
Medical from continuing to engage in its illegal practices.”
Compl. ¶ 14.
CLRA; “Plaintiff Elizabeth
FAL; Hurst brings this acUCL tion * * * as a private attorney general
seeking the imposition of public injunctive relief again Defendants.” Compl. ¶ 9.
UCL;
CLRA

“On behalf of themselves and the Classes, Plaintiffs seek
damages, restitution,
and public injunctive

88a

81

82

83

37-201800026392CU-COCTL (Cal.
Super. Ct.
July 13,
2018)
Miliate v.
San Diego
House of
Motorcycle,
Inc., No.
201800035131
(Cal. Super. Ct.
July 13,
2018)
Sutton v.
Yamaha
Motor Fin.
Corp.,
U.S.A., No.
BC713690
(Cal. Super. Ct.
July 11,
2018)
Espinoza v.
Sharp
Healthcare
, No. 372018-

relief for Defendants’
breach of contract and
violations of California’s consumer protection laws.” Am.
Compl. ¶ 6.
CLRA; “In order to remedy
UCL these violations,
Plaintiff seeks appropriate relief for himself and the class, including damages, restitution, and injunctive relief, as well as
attorneys’ fees and
costs. In addition,
Plaintiff seeks a public injunction.” Compl.
¶ 6.
UCL; “Plaintiff is seeking to
CLRA enjoin [Defendant’s
unlawful acts] on behalf of the general
public, pursuant to,
among other things,
the Unfair Competition law.” Compl. ¶ 6.
UCL;
CLRA

Alleging in complaint
brought on behalf of
the Plaintiff, all others similarly situated,

89a
00034031CU-OECTL (Cal.
Super. Ct.
July 10,
2018)

84

Miller v.
Lazy Dog
Restaurants, LLC,
No. 37201800032494CU-BTCTL (Cal.
Super. Ct.
June 29,
2018)

UCL;
CLRA

and “the general public” that “Plaintiff,
and all persons similarly situated, and all
persons in interest,
are further entitled to
and do seek a declaration that the above
described business
practices are unfair,
unlawful, and/or
fraudulent, and injunctive relief restraining Defendants
from engaging in any
of the herein described unfair, unlawful, and/or fraudulent
business practices at
all times in the future.” Compl. ¶ 51, p.
1.
“Accordingly, Plaintiff, on behalf of
himself and all others similarly situated, and as appropriate, on behalf of the
general public of the
state of California,
seeks injunctive relief
prohibiting Defendants from continuing
these wrongful practices.” Compl. ¶ 44.

90a
85

Silverman
v. Wells
Fargo &
Co., No.
18-cv03886
(N.D. Cal.
June 28,
2018)

86

Cruz v.
Synapse
Grp., Inc.,
No. 37201800032240CU-MCCTL (Cal.
Super. Ct.
June 28,
2018)

87

Mejia Calderon v.
Tapia Enters., Inc.,
No.
BC709635
(Cal. Super. Ct.
June 14,
2018)

UCL

“Plaintiffs specifically
request as a remedy
under the UCL that
this Court issue a
public injunction requiring Defendant to
immediately cease operation of its current
financing programs.”
Compl. p. 37.
UCL; Plaintiff seeks “a perCLRA; manent injunction enFAL joining defendants
from violating the
ARL, the CLRA, the
FAL, and the UCL in
connection with defendants’ offers and
fulfillment of magazine subscriptions, on
behalf of the Class,
and also for the benefit of the general public of the State of California.” Compl. p. 22.
UCL
“Plaintiff is entitled
to an injunction and
other equitable relief
against such unlawful
practices in order to
prevent future damage[.] * * * Plaintiff
brings this cause individually and as members of the general

91a

88

Kuhns v.
Matheson
Trucking,
Inc., No.
RG189075
42 (Cal.
Super. Ct.
June 5,
2018)

UCL

89

Davis v.
Too Fast,
Inc., No.
BC708902
(Cal. Super. Ct.
June 4,
2018)
Hee v.
DACM
Inc., No.

UCL;
CLRA

90

UCL;
CLRA

public actually
harmed and as a representative of all others subject to [Defendants’] unlawful
acts and practices.”
Compl. ¶ 175.
“Plaintiff is entitled
to an injunction and
other equitable relief
against such unlawful
practices in order to
prevent future damage[.] * * * Plaintiff
brings this cause individually and as members of the general
public actually
harmed and as a representative of all others subject to [Defendant’s] unlawful
acts and practices.”
Compl. ¶ 159.
“This abhorrent behavior warrants a
public injunction prohibiting [Defendant]
from continuing to engage in the practices
alleged herein.”
Compl. ¶ 3.
“This abhorrent behavior warrants a

92a
BC708283
(Cal. Super. Ct.
May 30,
2018)
91

Rivera v.
Invitation
Homes,
Inc., No.
18-cv03158
(N.D. Cal.
May 25,
2018)

UCL

92

Alamina v.
California
Motorcycle
Assessories, Inc.,
No.
BC707277
(Cal. Super. Ct.
May 24,
2018)
Mejia v.
DACM
Inc., No.
BC705674
(Cal. Super. Ct.

UCL;
CLRA

93

UCL;
CLRA

public injunction prohibiting [Defendant]
from continuing to engage in the practices
alleged herein.”
Compl. ¶ 3.
“Plaintiff also seeks
an injunction. Pursuant to the UCL, Plaintiff, the class, and
the general public
are entitled to injunctive relief
against Defendant’s
ongoing continuation
of such unlawful business practices.”
Compl. ¶ 44.
“This abhorrent behavior warrants a
public injunction prohibiting [Defendant]
from continuing to engage in the practices
alleged herein.”
Compl. ¶ 3.

“This abhorrent behavior warrants a
public injunction prohibiting [Defendant]
from continuing to engage in the practices

93a
May 23,
2018)
94

Rueda v.
Idemia
Identity &
Sec. USA,
LLC, No.
RG189059
95 (Cal.
Super. Ct.
May 22,
2018)

95

Milosavljevic
v.
Jetsmarter,
Inc., No.
BC706196
(Cal. Super. Ct.
May 14,
2018)

96

Grant v.
Seterus,
Inc., No.
BC703834
(Cal. Super. Ct.

alleged herein in addition to class relief.”
Compl. ¶ 4.
UCL “Therefore, pursuant
to Business & Professions Code section
17203, Plaintiff, on
behalf of the proposed
Class and members of
the general public
seeks an order of this
Court to enjoin Defendants from engaging in the unfair business practices alleged
herein.” Compl. ¶ 82.
UCL; “California’s ConCLRA; sumer Legal RemeFAL dies Act; the ‘Yelp’
law, Cal. Civ. Code §
1670.8; the False Advertising Law; and
the Unfair Competition Law— [are] the
very statutes under
which Plaintiff is
seeking public injunctive relief in this action.” Compl. ¶ 101.
UCL “California Business
& Professions Code §
17200, et seq., provides that a Court
may order injunctive
relief and restitution

94a
Apr. 25,
2018)

97

Miller v.
Bayview
Loan Servicing,
LLC, No.
BC703835
(Cal. Super. Ct.
Apr. 25,
2018)

UCL

98

Andrews v.
Townsgate
Capital

UCL;
CLRA

to affected members
of the general public
to remedy violations.
* * * Pursuant to
Business and Professions Code sections
17203 and 17204,
Plaintiff is empowered to act as a private attorney general
to enjoin such conduct.” Compl. ¶¶ 35,
42.
“California Business
& Professions Code §
17200, et seq., provides that a Court
may order injunctive
relief and restitution
to affected members
of the general public
to remedy violations.
* * * Pursuant to
Business and Professions Code sections
17203 and 17204,
Plaintiff is empowered to act as a private attorney general
to enjoin such conduct” Compl. ¶¶ 35,
42.
“This action is
brought to obtain

95a
Corp., No.
BC703125
(Cal. Super. Ct.
Apr. 20,
2018)

99

Solares
Munoz v.
Transport
Express,
Inc., No.
BC702520
(Cal. Super. Ct.
Apr. 18,
2018)

UCL

100

Villegas v.
Walgreen
Co., No.
BC702278
(Cal. Super. Ct.
Apr. 16,
2018)

UCL

public injunctive relief, to put an end to
violations by defendant Townsgate of the
Rees-Levering Automobile Sales Finance
Act, the Consumer
Credit Reporting
Agencies Act, the
Consumers Legal
Remedies Act, and
the Unfair Competition Law.” Compl. ¶ 1.
“Plaintiff, on behalf of
himself and all others
similarly situated and
also on behalf of the
general public” seeks
“[a]n order enjoining
Defendants from further unfair and unlawful business practices in violation of
[the UCL].” Compl. p.
16.
“Plaintiff, on behalf of
herself and all others
similarly situated and
also on behalf of the
general public” seeks
“[a]n order enjoining
Defendants from further unfair and unlawful business practices in violation of

96a

101

Baker v.
Nestle S.A.,
No. 18-cv03097
(C.D. Cal.
Apr. 12,
2018)

UCL;
FAL;
CLRA

102

De Jong v.
Renaissance Arts
Academy,
No.
BC700534
(Cal. Super. Ct.
Apr. 2,
2018)

UCL

103

Posada v.
Progressive
Transp.
Servs.,
LLC, No.
BC697554
(Cal. Super. Ct.

UCL

[the UCL].” Compl.
pp. 14-15.
“Plaintiff seeks injunctive relief under
the CLRA to prohibit
the unlawful acts alleged herein, which
threaten ongoing and
future injury to the
general public.”
Compl. ¶ 80; see also
id. ¶ 59 (similarly
seeking public injunctive relief under the
FAL and UCL).
“Pursuant to Business
and Professions Code
§ 17203, Plaintiff
seeks injunctive relief
on behalf of the general public to remedy
RAA’s ongoing failure
to comply with the
HSA and its charter
agreement.” Compl. ¶
7.
“Plaintiff, on behalf of
himself and all others
similarly situated and
also on behalf of the
general public” seeks
“[a]n order enjoining
Defendants from further unfair and un-

97a
Mar. 9,
2018)
104

Heredia v.
Sunrise
Senior Living, LLC,
No. 18-cv00616
(N.D. Cal.
Feb. 23,
2018)

UCL;
CLRA

105

STM Atlantic N.V.
v. Dong
Yin Dev.
(Holdings)
Ltd., No.
18-cv-

UCL

lawful business practices in violation of
[the UCL].” Compl.
pp. 16.
“Plaintiff prays for
judgment * * * [f]or a
public injunction requiring that Defendant immediately
cease acts that constitute unlawful, unfair
and fraudulent business practices, false
advertising and violations of the Consumer
Legal Remedies Act,
Business and Professions Code section
17200 et seq., and the
Elder Financial
Abuse statute as alleged herein, and to
enjoin Defendant
from continuing to engage in any such acts
or practices in the future.” Am. Compl. p.
32.
“As a further result,
Plaintiffs are entitled
to an injunction enjoining Defendants
from engaging in such
further unlawful, unfair and fraudulent

98a
01269
(C.D. Cal.
Feb. 15,
2018)
106

107

108

Lopez v.
Citibank,
N.A., No.
18-cv00291
(E.D. Cal.
Feb. 7,
2018)
Palma v.
Golden
State FC,
LLC, No.
18-cv00121
(E.D. Cal.
Feb. 7,
2018)

UCL

Dominguez
v. United
Parcel
Serv., Co.,
No. 18-cv01162
(C.D. Cal.
Feb. 01,
2018)

UCL

UCL

business acts and
practices, which injunction will benefit
both Plaintiffs and
the general public.”
Compl. ¶ 334.
“Plaintiff seeks an injunction on behalf of
the general public to
prevent CITIBANK
from continuing to engage in its illegal and
deceptive practices.”
Compl. ¶ 10.
“Plaintiff, on behalf of
himself and all others
similarly situated and
on behalf of the general public” seeks
“[a]n order enjoining
Defendants from further unfair and unlawful business practices in violation of
[the UCL].” Am.
Compl. p. 12.
“Plaintiff for himself
and on behalf of the
general public” seeks
“injunctive relief under Business & Professions Code § 17200,
et seq.” Am. Compl. ¶
1.

99a
109

110

111

112

Lopez v.
BBVA
Compass
Bank,
N.A., No.
18-cv00031
(E.D. Cal.
Jan. 6,
2018)
DeJarld v.
Los Angeles Fed.
Credit Union, No.
BC689080
(Cal. Super. Ct.
Jan. 4,
2018)
Mitchell v.
CoreLogic,
Inc., No.
17-cv02274
(C.D. Cal.
Dec. 29,
2017)

UCL;
CLRA

“Plaintiffs seek an injunction on behalf of
the general public to
prevent BBVA BANK
from continuing to engage in its illegal and
deceptive practices.”
Compl. ¶ 16.

UCL

“In her capacity as a
private attorney general, plaintiff seeks a
public injunction ending defendants’ unlawful business practices, once and for
all.” Compl. ¶ 1.

UCL

Johnson v.
JP Morgan
Chase
Bank,

UCL;
CLRA

Plaintiff “individually, on behalf of others similarly situated,
and on behalf of the
general public” seeks
to “enjoin Defendant
to cease and desist
from unlawful activities in violation of
[the UCL].” Compl. p.
15.
“Plaintiff and the
members of the Class
demand a jury trial

100a
N.A., No.
17-cv02477
(C.D. Cal.
Dec. 12,
2017)

113

114

Belton v.
Satellite
Affordable
Housing
Assocs.,
No.
RG178851
27 (Cal.
Super. Ct.
Dec. 7,
2017)
Brown v.
Clean Harbors Indus.
Servs. Inc.,
No.
RG178848
10 (Cal.
Super. Ct.
Dec. 5,
2017)

UCL

UCL

on all claims so triable and judgment
against Defendant as
follows: * * * Issuing
public injunctive relief, including to ensure compliance with
the CLRA and UCL”
Compl. p. 14.
In a Complaint
brought “on behalf of
the general public”
(Compl. p. 1), Plaintiff
seeks “[t]hat Defendant further be enjoined to cease and
desist from unfair
competition in violation of [the UCL]”
Compl. p. 32.
“Named Plaintiffs, suing on behalf of themselves, the putative
class members, and
the general public,
also seek restitution
and injunctive relief
under California law
for Defendants’ unlawful, unfair, and
fraudulent business
practices which have
deprived their employees of their rights
under California labor

101a

115

Cassel v.
Google
LLC, No.
17CV3192
02 (Cal.
Super. Ct.
Nov. 15,
2017)

UCL

116

Santos v.
Parkridge
Private
Sch., Inc.,
No.
BC683528
(Cal. Super. Ct.
Nov. 13,
2017)
Viguers v.
California
Physicians’
Serv., No.
BC682172

UCL;
FAL;
CLRA

117

UCL

laws and regulations,
in order to reduce its
payroll costs and increase profits, in violation of applicable
laws.” Compl. ¶ 3.
“Cassel brings this
lawsuit on behalf of
himself, the state of
California, and all of
Google’s aggrieved
employees subject to
its unlawful practices.
He also seeks a public
injunction against
Google in accordance
with California Business & Professions
Code § 17200 et seq.”
Compl. ¶ 6.
In Complaint brought
“on behalf of the General Public” (Compl. ¶
1), Plaintiff seeks “injunctive relief prohibiting the challenged
wrongful practices
and enjoining such
practices in the future.” Compl. ¶ 51(q).
“On behalf of themselves and on behalf
of the general public,
Plaintiffs request de-

102a
(Cal. Super. Ct.
Nov. 7,
2017)

118

Kitenge v.
Whole
Foods Market Cal.,
Inc., No.
CGC-17562250
(Cal. Super. Ct.
Nov. 1,
2017)

UCL

119

Reynolds v.
Santander
Consumer
USA Inc.,
No.
BC682021
(Cal. Super. Ct.

UCL

claratory and injunctive relief as remedies
to correct Blue
Shield’s practice of
categorically denying
all requests for microprocessor-controlled
foot prostheses.”
Compl. ¶ 38.
“Plaintiff is entitled to
an injunction and
other equitable relief
against such unlawful
practices in order to
prevent future damage[.] * * * Plaintiff
brings this case individually and as members of the general
public actually
harmed [sic] and as a
representative of all
others subject to [Defendant’s] unlawful
acts and practices.”
Compl. ¶ 138.
“Plaintiff files this
cause of action individually, and on behalf of the general
public, to challenge
and to remedy CrossDefendants’ business
practices. * * * The
UCL provides that a

103a
Nov. 1,
2017)

120

Kang v.
Wells
Fargo
Bank,
N.A., No.
17-cv06220
(N.D. Cal.
Oct. 27,
2017)

121

Wallace v.
Wells
Fargo &
Co., No.
17CV3177
75 (Cal.
Super. Ct.
Oct. 19,
2017)
Harrold v.
MUFG Union Bank,
N.A., No.
BC680214
(Cal. Super. Ct.

122

UCL

UCL;
CLRA

UCL;
CLRA

court may order injunctive relief and
restitution to affected
individuals as remedies for any violations
of the UCL.” Compl. ¶
55.
“Plaintiffs, on behalf
of themselves and all
others similarly situated and also on behalf of the general
public” seeks “[a]n order enjoining Defendant from further unfair and unlawful
business practices in
violation of the UCL.”
Compl. p. 16.
“Plaintiff seeks an injunction on behalf of
the general public to
prevent Wells Fargo
from continuing to engage in its illegal and
deceptive practices.”
Compl. ¶ 2.
“On behalf of herself
and the putative
class, Plaintiff seeks
an injunction on behalf of the general
public to prevent Un-

104a
Oct. 19,
2017)
123

Odahl v.
Primeritus
Fin. Servs.,
Inc., No.
BC679797
(Cal. Super. Ct.
Oct. 16,
2017)

UCL

124

San Luis
Imaging
Med. Grp.,
Inc. v. Blue
Cross of
Cal., No.
BC679451
(Cal. Super. Ct.
Oct. 12,
2017)
Lollock v.
Oakmont
Senior Living, LLC,
No.
RG178751
10 (Cal.
Super. Ct.

UCL

125

UCL;
CLRA

ion Bank from continuing to engage in its
illegal and deceptive
practices.” Compl. ¶ 6.
“Accordingly, plaintiff
brings this case as a
class action to obtain
restitution and disgorgement of Primeritus’s unlawful gains,
and also seeks a public injunction to put a
permanent end to
these violations of the
law.” Compl. ¶ 5.
“On behalf of itself
and on behalf of the
general public, Plaintiff requests restitution, interest, and injunctive relief as remedies to correct Anthem’s failure to
comply with AB 72.”
Compl. ¶ 33.
Plaintiff seeks “a public injunction requiring that Defendant
immediately cease
acts that constitute
unlawful, unfair and
fraudulent business
practices, and violations of the Consumer

105a
Sept. 13,
2017)

126

127

Underwood
v. Future
Income
Payments,
LLC, No.
17-cv01570
(C.D. Cal.
Sept. 11,
2017)
Pursell v.
727 West
Seventh,
LLC, No.
BC675509
(Cal. Super. Ct.
Sept. 11,
2017)

UCL;
CLRA

UCL

Legal Remedies Act,
Business and Professions Code section
17200 et seq., and the
Elder Financial
Abuse statute as alleged herein, and to
enjoin Defendant
from continuing to engage in any such acts
or practices in the future.” Compl. p. 41.
“Plaintiff and the general public are entitled to injunctive relief, restitution, and
other equitable relief.” Compl. ¶ 89.

“Plaintiffs, on behalf
of themselves and all
others similarly situated and also on behalf of the general
public” seek “[a]n order enjoining Defendants from further unfair and unlawful
business practices in
violation of [the
UCL].” Compl. pp. 1617.

106a
128

129

Gutierrez
v. Evans
Dedicated
Systems,
Inc., No.
17-cv01459
(C.D. Cal.
Aug. 23,
2017)
Dickinson
v. 24 Hour
Fitness
USA, Inc.,
No. 17-cv04877
(N.D. Cal.
Aug. 23,
2017)

UCL

UCL;
FAL;
CLRA

130

Cunningham v.
Burns National,
LLC, No.
BC671846
(Cal. Super. Ct.
Aug. 14,
2017)

UCL

131

Nesbit v.
Procel
Temporary

UCL

Plaintiffs “bring this
suit for injunctive relief, restitution, disgorgement, and other
appropriate equitable
relief on behalf of all
similarly-situated employees and on behalf
of the general public.”
Compl. ¶ 138.
“Plaintiff, on behalf
of themselves [sic]
and all other similarly situated consumers, and as appropriate, on behalf
of the general public, seek restitution
and injunctive relief”
Compl. ¶¶ 56, 67, 75,
81.
“Plaintiff thus brings
this case as a class action to recover damages and restitution
on behalf of all affected consumers, and
in his capacity as a
private attorney general, to obtain a public injunction.” Compl.
¶ 3.
“The Plaintiff for herself and on behalf of
the general public,

107a
Servs.,
Inc., No.
BC670585
(Cal. Super. Ct.
July 31,
2017)

132

Castro v.
Osterkamp
Trucking,
Inc., No.
BC669582
(Cal. Super. Ct.
July 21,
2017)

UCL

133

Bishop v.
Foot
Locker Retail, Inc.,
No. 37201700026586CU-OECTL (Cal.
Super. Ct.
July 20,
2017)

UCL

and all others similarly situated, brings
an action for monetary damages for failure to pay wages as
well as for injunctive
relief, declaratory relief and restitution for
Defendant’s violations
of [the UCL].” Compl.
¶ 1.
“Plaintiff, on behalf of
himself and all others
similarly situated and
also on behalf of the
general public” seeks
“[a]n order enjoining
Defendants from further unfair and unlawful business practices in violation of
[the UCL].” Compl.
pp. 17-18.
“Pursuant to the
UCL, Plaintiff, Class
Members, and the
general public, are entitled to injunctive relief against Defendant’s ongoing continuation of such unlawful
business practices.”
Compl. ¶ 60.

108a
134

Kao v. LG
Elecs., No.
17-cv01181
(C.D. Cal.
July 12,
2017)

UCL;
FAL;
CLRA

135

Abu-Hajar
v. AutoNation, Inc.,
No. 17-cv03505
(C.D. Cal.
June 21,
2017)

UCL

136

Myers v.
Intuit, Inc.,
No. 17-cv01228

UCL

“Plaintiff, individually and on behalf of
all similarly situated
California Class
members, and the
general public seek
injunctive relief for
Defendant’s violation
of the California Consumer Legal Remedies Act, California
Civil Code §§1750, et
seq.” Compl. ¶ 30; see
also id. ¶¶ 93, 99
(similarly requesting
public injunctive relief under the FAL
and UCL).
“Plaintiff, on behalf
of themselves [sic]
and all others similarly situated and
also on behalf of
the general public”
seek “[a]n order enjoining Defendants
from further unfair
and unlawful business practices in violation of [the UCL].”
Am. Compl. pp. 12-13.
“Pursuant to the
UCL, Plaintiff and
the general public are
entitled to injunctive

109a
(S.D. Cal.
June 16,
2017)
137

Mosquera
v. Pac Anchor
Transp.,
Inc., No.
BC664927
(Cal. Super. Ct.
June 14,
2017)

UCL

138

Laufer v.
Eat Club
Inc., No.
17CV3107
64 (Cal.
Super. Ct.
May 22,
2017)

UCL

139

Blair v.
Rent-ACenter,
Inc., No.
17-cv-

UCL;
CLRA

relief against Defendant’s ongoing continuation of such business
practices.” Compl. ¶
64.
“Plaintiffs, on behalf
of himself [sic] and all
others similarly situated and also on behalf of the general
public” seeks “[a]n order enjoining Defendants from further unfair and unlawful
business practices in
violation of [the
UCL].” Compl. pp. 2324.
In Complaint brought
“on behalf of the general public,” Plaintiff
alleges that “[i]njunctive relief is necessary and appropriate
to prevent Defendants
from repeating the
wrongful business
practices alleged
herein.” Compl. ¶ 47,
p.1.
“This action seeks a
public injunction and
other equitable relief,
including restitution,
invalidation of rental-

110a
02335
(N.D. Cal.
May 19,
2017)

140

Garcia v.
Haralambos Beverage Co.,
No. BCV16-102323
(Cal. Super. Ct.
May 16,
2017)

UCL

141

Silva v.
United
Auto Delivery and Recovery,
Inc., No.
BC661111
(Cal. Super. Ct.

UCL;
CLRA

purchase agreements,
an accounting, and a
declaratory judgment
that Defendants’ conduct violated California law, as well as
compensatory and punitive damages.” Am.
Compl. ¶ 1.
“Plaintiff is entitled to
an injunction and
other equitable relief
against such unlawful
practices in order to
prevent future damage [.] * * * Plaintiff
brings this cause individually and as members of the general
public actually
harmed and as a representative of all others subject to [Defendants’] unlawful
acts and practices.”
Compl. ¶ 227.
Plaintiff thus brings
this case as a class action to recover damages, and in his capacity as a private attorney general, to obtain a public
injunction.” Compl. ¶
3.

111a

142

May 15,
2017)
Pollar v.
Cort Business Servs.
Corp., No.
RG178596
65 (Cal.
Super. Ct.
May 9,
2017)

UCL

143

Hartigan
v. Toyota
Motor
Credit
Corp., No.
BC660291
(Cal. Super. Ct.
May 5,
2017)

UCL

144

Ream
Holdings,
LLC v. 3R
Int’l Grp.,
Inc., No.

UCL

“Plaintiff is entitled to
an injunction and
other equitable relief
against such unlawful
practices in order to
prevent future damage[.]: * * * Plaintiff
brings this cause individually and as members of the general
public actually
harmed and as a representative of all others subject to [Defendants’] unlawful
acts and practices.”
Compl. ¶ 196.
“Plaintiff files this
cause of action as a
private attorney general to seek a public
injunction against the
defendants, whose
unlawful business
practices are continuing to harm thousands of people.”
Compl. ¶ 32.
“Plaintiff brings this
cause of action on behalf of itself and the
general public, seek-

112a
17-cv00825
(C.D. Cal.
Apr. 27,
2017)

ing restitution and injunctive relief.”
Compl. ¶ 132.

